No. 21In the

Supreme Court of the United States
PDVSA US LITIGATION TRUST,
Petitioner,
v.
LUKOIL PAN AMERICAS, LLC., et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
George F. Carpinello
Joseph D. Starsia
Boies Schiller
Flexner LLP
30 South Pearl Street,
11th Floor
Albany, New York 12207
(518) 434-0600

David Boies
Counsel of Record
Boies Schiller Flexner LLP
333 Main Street
Armonk, New York 10504
(914) 749-8200
dboies@bsfllp.com
David A. Barrett
Marilyn C. Kunstler
Boies Schiller Flexner LLP
55 Hudson Yards, 20th Floor
New York, New York 10001
(212) 446-2300

Counsel for Petitioner
Dated: October
307806

, 2021

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether a court of appeals may deem an argument to
have been abandoned when it was properly raised and fully
briefed in the district court, and raised in the appellate
briefing to such an extent that the court addressed the
argument in its decision and found it to be meritorious.

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner, who was plaintiff in the district court, and
appellant in the court of appeals, is PDVSA U.S. Litigation
Trust.
Respondents, who were defendants in the district
court, and appellees in the court of appeals, are Lukoil
Pan Americas LLC; Lukoil Petroleum Ltd.; Colonial
Oil Industries, Inc.; Colonial Group, Inc.; Glencore Ltd.;
Glencore International A.G.; Glencore Energy UK Ltd.;
Masefield A.G.; Trafigura A.G.; Trafigura Trading LLC;
Trafigura Beheer B.V.; Vitol Energy (Bermuda) Ltd.; Vitol
S.A.; Vitol, Inc.; Francisco Morillo; Leonardo Baquero;
Daniel Lutz; Luis Liendo; John Ryan; Maria Fernanda
Rodriguez; Helsinge Holdings, LLC; Helsinge, Inc.;
Helsinge Ltd., Saint-Helier; Waltrop Consultants, C.A.;
Godelheim, Inc.; Hornberg Inc.; Societe Doberan, S.A.;
Societe Hedisson, S.A.; Societe Hellin, S.A.; Glencore de
Venezuela, C.A.; Jehu Holding Inc.; Andrew Summers;
Maximiliano Poveda; Jose Larocca; Luis Alvarez; Gustavo
Gabaldon; Sergio De La Vega; Antonio Maarraoui;
Campo Elias Paez; Paul Rosado; BAC Florida Bank; EFG
International A.G.; and Blue Bank International N.Y.

iii
CORPORATE DISCLOSURE STATEMENT
PDVSA U.S. Litigation Trust does not have a parent
corporation and is not a publicly held corporation.

iv
RELATED PROCEEDINGS
PDVSA US Litigation Trust v. Lukoil Pan Americas,
et al., Nos. 19-11124, 20-11133, U.S. Court of Appeals
for the Eleventh Circuit. Remanded for limited purpose
October 1, 2021.
PDVSA US Litigation Trust v. Lukoil Pan Americas,
LLC, et al., No. 19-10950, U.S. Court of Appeals for the
Eleventh Circuit. Judgment entered March 18, 2021.
Petition for rehearing and rehearing en banc denied May
7, 2021.
PDVSA US Litigation Trust v. Lukoil Pan Americans,
LLC, et al., No. 18-cv-20818-DPG, U.S. District Court
for the Southern District of Florida. Judgment entered
March 8, 2019.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS BELOW . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
A. Formation of the Litigation Trust . . . . . . . . . . . . 4
B. The District Court Dismissal Decision on
Champerty Grounds  . . . . . . . . . . . . . . . . . . . . . . . 6
C. The Trust’s Appellate Brief and the Eleventh
Circuit’s Decision . . . . . . . . . . . . . . . . . . . . . . . . . . 7

vi
Table of Contents
Page
REASONS FOR GRANTING THE WRIT . . . . . . . . . 10
I.

Review Should Be Granted to Resolve a
Circuit Split Concerning the Manner in which
an Appellant Must Raise an Argument on
Appeal to Avoid the Court of Appeals Deeming
Argument to Be Abandoned . . . . . . . . . . . . . . . . 10

II. Review Should Be Granted to Resolve a
Circuit Split Concerning Whether a Court of
Appeals Must Consider Whether There Are
Extraordinary Circumstances That Preclude
Deeming an Argument to Be Abandoned . . . . . 14
III. Review Should Be Granted Because the
Eleventh Circuit’s Decision So Far Departed
from the Accepted and Usual Course of
Proceedings as to Call for Exercise of the
Court’s Supervisory Power . . . . . . . . . . . . . . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CIRCU I T, FI LED
MARCH 18, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA,
MIAMI DIVISION, FILED MARCH 8, 2019  . . . 18a
A PPENDI X C — REPORT A ND
RECOMMENDATION OF THE
UNITED STATES DISTRICT
COURT FOR THE SOU THERN
DI S T R IC T OF F L OR I DA , DAT ED
NOVEMBER 5, 2018  . . . . . . . . . . . . . . . . . . . . . . . . 34a
APPENDIX D — DENIAL OF REHEARING
OF T H E U N I T ED S TA T E S C OU RT
OF A PPEA LS FOR THE ELEV ENTH
CIRCUIT, FILED MAY 7, 2021 . . . . . . . . . . . . . . . 84a

viii
TABLE OF CITED AUTHORITIES
Page
CASES:
11126 Baltimore Blvd., Inc. v.
Prince George’s Cty., Md.,
58 F.3d 988 (4th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 11
Access Now, Inc. v. Sw. Airlines Co.,
385 F.3d 1324 (11th Cir. 2004) . . . . . . . . . . . . . . . 16, 18
Acosta-Huerta v. Estelle,
7 F.3d 139 (9th Cir. 1992) . . . . . . . . . . . . . . . . . . . . . . 15
Advanced Magnetic Closures, Inc. v.
Rome Fastener Corp.,
607 F.3d 817 (Fed. Cir. 2010) . . . . . . . . . . . . . . . . . . . 11
Ball v. City of Indianapolis,
760 F.3d 636 (7th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 12
Barnes ex rel. Est. of Barnes v. Koppers. Inc.,
534 F.3d 357 (5th Cir. 2008) . . . . . . . . . . . . . . . . . . . . 13
Beard v. Whitley Cty. REMC,
840 F.2d 405 (7th Cir. 1988) . . . . . . . . . . . . . . . . . . . . 11
Bluebird Partners, L.P. v.
First Fidelity Bank, N.A.,
731 N.E.2d 581 (N.Y. 2000)  . . . . . . . . . . . . . . . . . . 8, 18
Cinel v. Connick,
15 F.3d 1338 (5th Cir. 1994) . . . . . . . . . . . . . . . . . . . . 11

ix
Cited Authorities
Page
Geboy v. Brigano,
489 F.3d 752 (6th Cir. 2007) . . . . . . . . . . . . . . . . . . . . 10
Hall v. Georgia,
649 F. App’x 698 (11th Cir. 2016) . . . . . . . . . . . . . . . . 16
Hatley v. Lockhart,
990 F.2d 1070 (8th Cir. 1993) . . . . . . . . . . . . . . . . . . . 11
Hollingsworth v. Perry,
558 U.S. 183 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
In re Ogden,
314 F.3d 1190 (10th Cir. 2002)  . . . . . . . . . . . . . 3, 12, 14
Lawrence v. Dunbar,
919 F.2d 1525 (11th Cir. 1990)  . . . . . . . . . . . . . . . . . . . 9
LINC Finance Corp. v. Onwuteaka,
129 F.3d 917 (7th Cir. 1997) . . . . . . . . . . . . . . . . . . . . 14
Mills v. U.S. Bank, NA,
753 F.3d 47 (1st Cir. 2014) . . . . . . . . . . . . . . . . . . . . . . 10
Reid v. Lawson,
837 F. App’x 767 (11th Cir. 2021) . . . . . . . . . . . . . . . . 12
Robinson v. Wix Filtration Corp. LLC,
599 F.3d 403 (4th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 15

x
Cited Authorities
Page
Sawyers v. Norton,
962 F.3d 1270 (10th Cir. 2020) . . . . . . . . . . . . . . . . . . 10
Semi-Tech Litig., LLC v. Bankers Tr. Co.,
272 F. Supp. 2d 319 (S.D.N.Y. 2003)  . . . . . . . . . . . . . . 8
Southall v. USF Holland, Inc,
794 F. App’x 479 (6th Cir. 2019) . . . . . . . . . . . . . . . . . 10
State St. Bank & Tr. Co. v.
Inversiones Errazuriz Limitada,
374 F.3d 158 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 11
Torgerson v. City of Rochester,
643 F.3d 1031 (8th Cir. 2011)  . . . . . . . . . . . . . . . . . . . 12
United States v. Albertson,
645 F.3d 191 (3d Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 16
United States v. Draper,
553 F.3d 174 (2d Cir. 2009) . . . . . . . . . . . . . . . . . . . . . 14
United States v. Marquez,
898 F.3d 1036 (10th Cir. 2018) . . . . . . . . . . . . . . .  12-13
United States v. Priester,
506 F. App’x 416 (6th Cir. 2012) . . . . . . . . . . . . . . . . . 15
United States v. Restrepo,
986 F.2d 1462 (2d Cir. 1993) . . . . . . . . . . . . . . . . . . . . 13

xi
Cited Authorities
Page
United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . 19
United States v. Whitfield,
590 F.3d 325 (5th Cir. 2009) . . . . . . . . . . . . . . . . . . . . 15
United States v. Young,
303 F. App’x 574 (9th Cir. 2008) . . . . . . . . . . . . . . . . . 11
Villareal-Jaramillo v. Gonzales,
232 F. App’x 76 (2d Cir. 2007)  . . . . . . . . . . . . . . . . . . 15
Williams v. Woodford,
384 F.3d 567 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 13
Wisbey v. City of Lincoln, Neb.,
612 F.3d 667 (8th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 12
STATUTES & OTHER AUTHORITIES:
28 U.S.C.§ 1254(a)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. App. P. 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Fed. R. App. P. 28 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. App. P. 28(a)(4)  . . . . . . . . . . . . . . . . . . . . . . .  10, 11
Fed. R. Civ. P. 12(b)(1) . . . . . . . . . . . . . . . . . . . . .  6, 7, 9, 19
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 19

xii
Cited Authorities
Page
Jan-Henrik Forster & Hugo Miller, Banker’s Arrest
Puts Boom Years Under Scrutiny at Swiss Bank,
Bloomberg (Sept. 28, 2018 9:30 AM IST)  . . . . . . .  4-5
N.Y. Judiciary Law § 489(1)  . . . . . . . . . . . . . . . . . . . . . . . 6
Sup. Ct. R. 16.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

1
OPINIONS BELOW
The opinion of the Court of Appeals is reported at
991 F.3d 1187 and reproduced at Appendix A, 1a-17a.
The District Court’s order is reported at 372 F. Supp.
3d 1353 and reproduced at Appendix B, 18a-33a. That
decision affirmed the report and recommendation of the
Magistrate Judge, which is unreported and is reproduced
at Appendix C, 34a-83a. The Court of Appeals’ denial of
rehearing and rehearing en banc is unreported and is
reproduced at Appendix D, 84a-85a.
JURISDICTION
The judgment of the Court of Appeals was entered
on March 18, 2021. A timely petition for rehearing and
rehearing en banc was filed on April 1, 2021. The order
denying the petition for rehearing and rehearing en banc
was entered on May 7, 2021. Because the petition was denied
on May 7, 2021, this petition is subject to the Court’s July
19, 2021 order extending the time to file a petition for writ
of certiorari to 150 days from the date of an order denying
a timely petition for rehearing issued on or before July 19,
2021. The jurisdiction of this Court to review the Court of
Appeal’s judgment is conferred by 28 U.S.C. § 1254(a)(1).
STATUTORY PROVISIONS INVOLVED
Rule 28 of the Federal Rules of Appellate Procedure
provides in relevant part:
The appellant’s brief must contain
...

2
(A) appellant’s contentions and the reasons for
them, with citations to the authorities and parts
of the record on which the appellant relies; and
(B) for each issue, a concise statement of the
applicable standard of review (which may
appear in the discussion of the issue or under a
separate heading placed before the discussion
of the issues).
INTRODUCTION
This Petition raises important issues to the fair
administration of justice in the courts of appeals. The
circuits apply different and conflicting—and in some
cases, overly formalistic—standards in deciding whether
an appellant has abandoned a meritorious argument. The
case involves a large-scale litigation involving hundreds
of millions of dollars, numerous parties, and thousands of
pages of briefing. The Eleventh Circuit affirmed dismissal
against Petitioner PDVSA U.S. Litigation Trust (the
“Trust”), despite the fact that the court found in its opinion
that there was a “strong argument” that the Trust was
right on the law on the purportedly abandoned issue.
The Eleventh Circuit strongly implied that the district
court’s decision dismissing the Trust’s claims should have
been reversed, but it declined to do so because, it held, the
Trust had abandoned the winning argument. Yet the Trust
had fully and repeatedly briefed that very argument to
the district court below, and thereafter included it in its
brief to the Eleventh Circuit, with supporting authority
subsequently cited by the court. Yet, the court of appeals
held, without explanation, that the Trust had “abandoned”
the issue, and so affirmed.

3
Abandonment is a doctrine rooted in fundamental
fairness: that an appellate court should not decide an issue
in favor of an appellant, if the appellant’s briefing has not
given the appellee a fair opportunity to respond to the
argument. For that reason, appellate courts will generally
not consider an issue that an appellant has failed to brief.
While some courts still hew closely to the concept
of fairness, in other courts, the concept of abandonment
has metastasized into an overly formalistic doctrine
that will find an argument abandoned for arbitrary
reasons, including that the argument was not addressed
in a separate section in the brief, that the argument
was raised in a footnote, or that the argument was
“mere background.” The result is a doctrine that
risks “sacrifice[ing] substantive justice on the altar of
administrative convenience.” In re Ogden, 314 F.3d 1190,
1197 (10th Cir. 2002) (alteration original).
The Court should grant the Petition for three reasons.
First, to resolve a split in the circuit courts regarding
the extent to which an argument must be raised in order
to preserve it for appellate review. The Court should reject
overly formalistic requirements, such as that an argument
cannot be preserved if it is raised in a footnote, and instead
rule that appellate briefs should be read liberally so that
cases can be decided on the merits wherever reasonably
possible.
Second, to resolve a split in the circuit courts
regarding the obligation of the courts of appeals to
consider arguments not raised, or inadequately raised,
in order to avoid manifest injustice.

4
Third, to address a decision by the court of appeals
that so far departed from the usual and accepted course
of proceedings as to call for exercise of this Court’s
supervisory power. The Eleventh Circuit’s decision,
which effectively ruled that the Trust should have won,
but instead affirmed dismissal of the complaint on the
basis of a technicality, is the sort of arbitrary outcome
that diminishes the legitimacy of the courts themselves.
STATEMENT OF THE CASE
A. Formation of the Litigation Trust
Petitioner’s complaint alleges that the Defendants
executed a multi-billion-dollar fraud on Petróleos de
Venezuela, S.A. (“PDVSA”), the national oil company of
Venezuela, and by far the nation’s most valuable asset,
and, by extension, the people of Venezuela. The complaint
alleges that the defendants, a cabal of international
energy companies, their banks, and corrupt Venezuelan
agents and officials, conspired to misappropriate PDVSA’s
proprietary data and intellectual property, and to use that
information in a far-reaching conspiracy to fix prices, rig
bids, eliminate competition, and otherwise systematically
loot PDVSA.
As described in the complaint, the orchestrators of
theis scheme were two Venezuelan nationals, Francisco
Morillo and Leonardo Baquero.1 Operating from their
1. Simultaneous with the filing of this complaint, Swiss
prosecutors launched an investigation of Morillo and Baquero for
the same conduct and based on information provided by the Trust.
Jan-Henrik Forster & Hugo Miller, Banker’s Arrest Puts Boom
Years Under Scrutiny at Swiss Bank, Bloomberg (Sept. 28, 2018

5
business headquarters in Miami, Florida, Morillo
and Baquero bribed certain employees of PDVSA for
advance and confidential information concerning bids
for sale of PDVSA’s hydrocarbon products. They then
sold that information to the energy companies who
were purportedly bidding for the same products. The
conspirators used international corporations and banks
to launder payments to Venezuelan officials that enabled
them to receive real-time access to PDVSA’s computer
system via a cloned server. Through these tactics, the
energy companies were able to manipulate the bidding
process and drive down the price of Venezuela’s most
valuable natural resource.
The Litigation Trust was formed by PDVSA so that
this litigation could proceed without interference from
the political and economic instability in Venezuelan
government and society, and to safeguard any recovery
from the same forces that had conspired to loot PDVSA.
The Trust was created under New York law, and it
expressly provided that any recovery from the litigation,
after expenses, was to be held in trust, subject solely to
the authority of the district court, for the sole benefit of
PDVSA and the Venezuelan people.
The Trust Agreement was executed in August 2017
by the Venezuelan Oil Minister Nelson Martinez, and
the Procurador General, Reinaldo Muñoz Pedroza, and
by a trustee designated by PDVSA. The next day, the
agreement was executed by two U.S. trustees.

9:30 AM IST), https://www.bloombergquint.com/markets/swissbank-cleans-house-after-scandals.

6
On March 3, 2018, the Trust filed the complaint
and simultaneously moved for a preliminary injunction
to prevent Defendants from destroying evidence and
dissipating assets. Dkt. 5. In opposition, Defendants
argued, among other things, that the Trust lacked
standing. Dkt. 161. Several months of discovery ensued
on the questions of whether the Trust had been properly
formed and whether PDVSA’s assignment of its claims
against Defendants to the Trust was valid. Defendants
thereafter moved to dismiss the case under Rule 12(b)(1)
for lack of Article III standing.
B. The District Court Dismissal Decision on Champerty
Grounds
One of Defendants’ arguments as to the Trust’s
alleged lack of standing was that PDVSA’s assignment
of claims to the Trust violated New York’s prohibition of
the ancient doctrine of champerty. See N.Y. Judiciary Law
§ 489(1); Dkt. 638 at 21. By its terms, though it is rarely
applied, the champerty statute prohibits “a corporation or
association” from taking an assignment of “any claim or
demand. . . with the intent and for the purpose of bringing
an action or proceeding thereon.” Id.
In opposition to the motion to dismiss before the
magistrate judge, the Trust filed a memorandum of law
on standing, and a subsequent reply brief on standing, in
which it argued, inter alia, that champerty was a factintensive issue not appropriate for dismissal at the motion
to dismiss stage. Dkt. 533 at 10, n.3.
The magistrate judge recommended dismissal. Her
report discussed five major issues—authenticity and

7
admissibility of the Trust Agreement, validity of the Trust
Agreement under New York law, validity of the Trust
Agreement under Venezuelan law, the political question
doctrine, and whether the act of state doctrine applied
to PDVSA’s assignment of the claims—and numerous
sub-issues within those issues. In the thirty-seven page
report, the only discussion of the Trust’s argument that
champerty cannot be decided on a motion to dismiss was
a three-line footnote. App. C at 65a, n 16.
Despite this brief mention, the Trust again raised
the issue in its reply brief to the district court in support
of its objections to the magistrate judge’s report and
recommendation. The Trust addressed the argument in an
entire subsection of the brief, arguing that the magistrate
judge had erred by addressing champerty, which is an
affirmative defense under New York law, in connection
with a Rule 12(b)(1) motion to dismiss. Dkt. 655 at 12. The
district court’s decision adopting the magistrate judge’s
recommendation and dismissing the Trust’s claims did not
address the Trust’s argument in this regard.
C. The Trust’s Appellate Brief and the Eleventh
Circuit’s Decision
The Trust’s appellate brief in the Eleventh Circuit
fully addressed each issue upon which the courts
below had based their decisions: the authenticity and
admissibility of the Trust Agreement, the act of state
doctrine, the Trust’s validity under Venezuelan law, and
the champerty issue. Within its argument on champerty,
the bulk of which was devoted to the district court’s
finding of fact that the primary purpose of the Trust was
to bring the lawsuit, the Trust again raised the issue that

8
champerty is an issue not appropriate for decision on a
motion to dismiss. The Trust argued that “New York law
strongly discourages findings of champerty at preliminary
stages of litigation” (Appellant’s Brief (“Br.”) at 34); and
that “[c]hamperty is an affirmative defense” (Br. at 33,
n. 13); that “raises a factual issue.” Br. at 35. Indeed, the
Trust’s brief cited a decision by the New York Court of
Appeals, Bluebird Partners, L.P. v. First Fidelity Bank,
N.A., 731 N.E.2d 581, 582 (N.Y. 2000), that definitively
supported the argument, all of which was set out in a
separate paragraph in the brief.
The Trust further emphasized the point in its reply
brief, emphasizing that the Defendants had the burden of
proving that the Trust’s exclusive purpose was to bring
litigation, and that Defendants had failed to counter
“Plaintiff’s argument that dismissal on the grounds
of primary purpose is inappropriate at this stage.”
Appellant’s Reply Brief (“Reply Br.”) at 17. The Trust
supported this argument with Second Circuit authority
applying New York law. Id. at 17-18 (quoting Semi-Tech
Litig., LLC v. Bankers Tr. Co., 272 F.Supp.2d 319, 331
(S.D.N.Y. 2003) (“Where, as here, any basis is advanced
that might justify a trier in finding that the sole or primary
purpose was not the commencement of a lawsuit, summary
judgment must be denied.”)). The Trust concluded, “This
factual issue is only appropriate for resolution at trial.”
Reply Br. at 18.
In its decision, the Eleventh Circuit agreed with the
Trust that the district court had erred by placing on
the Trust the burden of proving the authenticity of the
Trust Agreement. App. A at 3a. On that basis, the court
“assume[d]. . . that the district court erred by ruling that
the Trust Agreement was inadmissible.” Id. at 5a.

9
Still, the court affirmed the district court’s dismissal
of the case, on the sole basis of the champerty issue. The
court, addressing the champerty issue, held that whether
an agreement is champertous “is a mixed question of law
and fact,” Id. at 10a. The court recognized that there were
disputed issue of fact (id. at 10-11); and that there were
“two permissible views of the evidence.” Id. at 11a. The
court’s opinion also recognized (Id. at 5a): “Our cases hold
that claims ‘should not be dismissed on motion for lack of
subject-matter jurisdiction when that determination is
intermeshed with the merits of the claims and there is a
dispute as to a material fact.’ Lawrence v. Dunbar, 919
F.2d 1525, 1531 (11th Cir. 1990).” The court further held
that New York law applied and recognized that “a number
of New York cases have reversed summary judgment
rulings on champerty because there were underlying
disputes of material fact.” Id. at 10a.
The court therefore recognized that “the district court
may have erred procedurally in definitively resolving the
question of champerty at the Rule 12(b)(1) stage because
that question likely implicated the merits of the Litigation
Trust’s claims.” Id. at 6a. Indeed, the court said there was
“a strong argument that the district court should have
used the Rule 56 standard” and should not have resolved
disputed issues of fact. Id. at 7a.
Nevertheless, the court of appeals affirmed dismissal
of the case because it decided that, although the Trust
had argued in the district court “that champerty is a
fact-intensive issue that must be decided by a jury”, on
appeal the Trust had failed to raise the argument that
where there are factual issues (which both parties and
the Court agreed existed) the champerty issue should
not be resolved at the motion to dismiss stage (Id. at 7a-

10
8a), and that “the Litigation Trust has abandoned any
procedural objections to the champerty ruling.” Id. at 7a.
Because the court found that the Trust had waived this
procedural argument, it decided the champerty issue as a
question of fact, and applied a clearly erroneous standard
to the question of whether the assignment of claims was
champertous.
REASONS FOR GRANTING THE WRIT
I.

Review Should Be Granted to Resolve a Circuit
Split Concerning the Manner in which an Appellant
Must Raise an Argument on Appeal to Avoid
the Court of Appeals Deeming Argument to Be
Abandoned.

Rule 28(a)(4) of the Federal Rules of Appellate
Procedure provides that an appellant’s brief must contain
“appellant’s contentions and the reasons for them, with
citations to the authorities and parts of the record on which
the appellant relies,” along with “a concise statement of
the applicable standard of review.”
When an appellant completely fails to raise an issue
in its briefing, circuit courts generally deem the issue
abandoned. See, e.g., Sawyers v. Norton, 962 F.3d 1270, 1286
(10th Cir. 2020) (“Issues not raised in the opening brief are
deemed abandoned or waived.”); Southall v. USF Holland,
Inc, 794 F. App’x 479, 483–84 (6th Cir. 2019) (“Failing to
‘advance[ ] any sort of argument for the reversal of the
district court[ ],’ Geboy v. Brigano, 489 F.3d 752, 767 (6th
Cir. 2007), or ‘cogent argument’ that the district court got
it wrong ‘constitutes abandonment.’”); Mills v. U.S. Bank,
NA, 753 F.3d 47, 54 (1st Cir. 2014) (“[A]ppellant generally
may not preserve a claim merely by referring to it in a

11
reply brief or at oral argument.”); Advanced Magnetic
Closures, Inc. v. Rome Fastener Corp., 607 F.3d 817,
833 (Fed. Cir. 2010) (“[W]e have ‘consistently held that a
party waives an argument not raised in its opening brief.’”);2
United States v. Young, 303 F. App’x 574 (9th Cir. 2008)
(“If an appellant fails to provide supporting argument and
authority, the claim is abandoned.”); State St. Bank & Tr.
Co. v. Inversiones Errazuriz Limitada, 374 F.3d 158, 172
(2d Cir. 2004) (“When a party fails adequately to present
arguments in an appellant’s brief, we consider those
arguments abandoned.”); 11126 Baltimore Blvd., Inc.
v. Prince George’s Cty., Md., 58 F.3d 988, 993 (4th Cir.
1995) (“[A] party’s failure to raise or discuss an issue in
his brief is to be deemed an abandonment of that issue.”);
Cinel v. Connick, 15 F.3d 1338, 1345 (5th Cir. 1994) (“An
appellant abandons all issues not raised and argued in its
initial brief on appeal.”); Hatley v. Lockhart, 990 F.2d
1070, 1073 (8th Cir. 1993) (“We have generally held that
‘a party’s failure to raise or discuss an issue in his brief
is to be deemed an abandonment of that issue.’”); Beard
v. Whitley Cty. REMC, 840 F.2d 405, 408–09 (7th Cir.
1988) (“Rule 28(a)(4) of the Federal Rules of Appellate
Procedure mandates that an appellant must present in its
brief the issues to the appellate court that the appellant
desires to litigate.”).
Beyond this general agreement, however, there is
virtually no consistency among the courts of appeals as
to the manner and extent to which an argument must
be expounded in order to avoid having that argument
deemed abandoned. In some instances, courts have taken
a generous view of whether an argument is abandoned.
2. Adding to the confusion, courts often use the terms waiver
and abandonment interchangeably.

12
See, e.g., Wisbey v. City of Lincoln, Neb., 612 F.3d 667, 672
(8th Cir. 2010), abrogated on other grounds by Torgerson
v. City of Rochester, 643 F.3d 1031 (8th Cir. 2011) (finding
no abandonment although appellant did not specifically
assign error to the district court’s finding on the issue, and
her briefing on the issue was “convoluted” and “somewhat
disorganized”); In re Ogden, 314 F.3d 1190, 1197 (10th Cir.
2002) (no abandonment despite appellant citing virtually
no legal authorities on an issue).
Other courts impose hyper-technical and formalistic
requirements. The Eleventh Circuit recently held that an
appellant abandons an argument not only if she is omits it
from an opening brief, but also when “(1) she makes only
passing reference to it; (2) she raises it in a ‘perfunctory
manner without supporting arguments and authority’;
(3) she refers to it only in the ‘statement of the case’ or
‘summary of the argument’; or (4) the references to the
issue are mere background to her main arguments.” Reid
v. Lawson, 837 F. App’x 767, 767 (11th Cir. 2021). The
Seventh Circuit held that a constitutional argument had
been abandoned because appellant “devoted no more than
three sentences” to it. Ball v. City of Indianapolis, 760
F.3d 636, 645 (7th Cir. 2014).
The various circuits differ greatly in the rules
they apply to the length of argument that must be
presented on an issue in order to avoid abandonment.
For example, the Tenth Circuit found an issue not
abandoned notwithstanding that the appellant’s opening
brief contained only a “single sentence on this issue and
fails to explain why Billhymer’s testimony violated the
Confrontation Clause. Nor does Marquez provide the
applicable standard of review.” United States v. Marquez,

13
898 F.3d 1036, 1047 and n.2 (10th Cir. 2018). Similarly, the
Fifth Circuit held that “despite the brevity of [appellant’s]
briefing,” which referred to an issue in “one paragraph.
. . comprising two sentences,” the issue was “not so
insufficiently raised as to be waived.” Barnes ex rel. Est. of
Barnes v. Koppers. Inc., 534 F.3d 357, 362 (5th Cir. 2008).
Courts are also inconsistent on the question of
whether an argument can be preserved for appellate
review if it is raised only in a footnote. Compare Williams
v. Woodford, 384 F.3d 567, 587 (9th Cir. 2004) (claim
was preserved despite the only discussion being limited
to a footnote, because, whether raised in a footnote or
elsewhere, the court considered not the placement of the
argument but “whether the opening brief contains the
appellant’s contentions as well as citations to the record”)
with United States v. Restrepo, 986 F.2d 1462, 1463 (2d
Cir. 1993) (“We do not consider an argument mentioned
only in a footnote to be adequately raised or preserved
for appellate review.”).
These shifting and inconsistent standards cause
confusion for litigants, particularly when appellate briefs
are subject to strict page limitations. In a highly complex
case, such as the one at bar, litigants have a vast number of
issues to litigate, and an overly formalistic standard creates
a catch-22 for litigants. Appellants, by necessity, must devote
their limited space to the issues addressed by the court
below, or risk abandoning those issues. Yet, courts, like
the Eleventh Circuit here, punish an appellant by finding
abandonment where they conclude, after the fact, that an
entire section of the opening brief should have been devoted
to an issue that was argued, briefed, and preserved, but not
even addressed by the district court in its opinion below.

14
Where, as here, the issue was actually addressed in
the appellate brief, and is dispositive, the Court should
reject formalistic requirements, such as that an argument
must be given its own heading. Instead, the Court should
establish a presumption against abandonment when an
issue is expressly raised in appellant’s brief, and that
abandonment can be found only if the issue is not raised at
all, or raised so perfunctorily as to render it meaningless.
II. Review Should Be Granted to Resolve a Circuit
Split Concerning Whether a Court of Appeals
Must Consider Whether There Are Extraordinary
Circumstances That Preclude Deeming an
Argument to Be Abandoned.
Most courts of appeals recognize that an issue that
is not properly or fully raised in an appellant’s briefing
should nonetheless sometimes be considered because justice
requires it. Although the courts articulate the precise
standard differently, the principle that the circumstances
of a case must be considered before declaring a meritorious
issue abandoned is widely understood and followed. The
reason for this principle is simple: To “avoid any appearance
that we are sacrifice[ing] substantive justice on the altar
of administrative convenience.” In re Ogden, 314 F.3d at
1197 (alteration original) (quoting LINC Finance Corp. v.
Onwuteaka, 129 F.3d 917, 922 (7th Cir. 1997)).
Thus, the Second and Ninth Circuits will consider
an issue, even if deemed not properly raised on appeal,
where failing to do so would result in “manifest injustice.”
See United States v. Draper, 553 F.3d 174, 179 n.2 (2d Cir.
2009) (“Ordinarily, arguments not raised on appeal are
deemed abandoned. However, Fed. R. App. P. 2 gives a
Court of Appeals the discretion to overlook such failure

15
if a manifest injustice otherwise would result. Because
we have held that a finding of plain error implicates a
‘manifest injustice,’ it is appropriate for us to proceed
with such review.” (internal citations and quotation marks
omitted)); Acosta-Huerta v. Estelle, 7 F.3d 139, 144 (9th Cir.
1992) (“We will only review an issue not properly presented
if our failure to do so would result in manifest injustice.”).
Similarly, the Fifth and Sixth Circuits will consider
an argument, even though deemed not properly raised, if
not addressing it would result in a “miscarriage of justice.”
United States v. Priester, 506 F. App’x 416, 420 (6th Cir.
2012) (“Generally, arguments not raised in an appellant’s
opening brief are considered abandoned. Nonetheless,
this rule is prudential and not jurisdictional. Deviations
are permitted in ‘exceptional cases or particular
circumstances,’ or when the rule would produce a
‘plain miscarriage of justice.’” (internal citations and
quotation marks omitted)); United States v. Whitfield, 590
F.3d 325, 346 (5th Cir. 2009) (“However, the Government
protests that appellants failed to raise this issue on appeal.
As a general rule, a party waives any argument that it fails
to brief on appeal. However, this court has recognized an
exception to this rule whereby we will consider a point of
error not raised on appeal when it is necessary ‘to prevent
a miscarriage of justice.’” (internal citation omitted)).
The Fourth Circuit has considered an issue that
was not briefed, and was raised for the first time at oral
argument, because the issue was potentially “dispositive.”
Robinson v. Wix Filtration Corp. LLC, 599 F.3d 403, 411
(4th Cir. 2010). 3
3. In Villareal-Jaramillo v. Gonzales , 232 F. App’x 76,
76–77 (2d Cir. 2007), the Second Circuit suggested by negative

16
The Third Circuit follows a three-part test to decide
whether to find that an argument was waived. United States
v. Albertson, 645 F.3d 191, 195 (3d Cir. 2011). The Third
Circuit’s test for waiver4 requires the court to consider (1)
appellant’s reason for failing to raise the issue, (2) prejudice
to the opposing party, and (3) whether failing to consider
the issue would result in a miscarriage of justice. Id.
The Eleventh Circuit, by contrast, does not even
acknowledge the need to consider extraordinary
circumstances, or anything equivalent, in deciding
whether it should consider an argument it deems
inadequately briefed. See, e.g., Hall v. Georgia, 649 F.
App’x 698, 699 (11th Cir. 2016) (unpublished opinion)
(“[T]he law is by now well settled in this Circuit that a
legal claim or argument that has not been briefed before
the court is deemed abandoned and its merits will not be
addressed.”) (quoting Access Now, Inc. v. Sw. Airlines
Co., 385 F.3d 1324, 1330 (11th Cir. 2004)).
In keeping with that harsh, absolute rule, the court
of appeals affirmed dismissal of this case, despite
acknowledging that the Trust had a winning issue, without
considering whether terminating the litigation would
result in manifest injustice.
Abandonment is a severe penalty where the finding
results in dismissal of the case, particularly in a highly
implication that it too would consider a meritorious, though
unraised, argument: “Further, because Petitioner’s arguments
appear to lack merit, there is no reason for us to exercise our
discretion to consider equitable tolling despite its abandonment.”
4. In Albertson, as in many cases, waiver and abandonment
mean effectively the same thing.

17
complex case like this one, where the appellant must decide
whether to brief a myriad of issues that were raised in
the courts below, some of which were addressed in the
decisions below, and some not. It is, of course, virtually
impossible to predict which issue the court of appeals may
ultimately find dispositive.
The Court should resolve the disagreement among the
circuits on this issue by allowing a finding of abandonment
only when it is clearly and substantially justified by the
circumstances of the case, including consideration of
whether abandonment would result in manifest injustice.
III. Review Should Be Granted Because the Eleventh
Circuit’s Decision So Far Departed from the
Accepted and Usual Course of Proceedings as to
Call for Exercise of the Court’s Supervisory Power.
This Court “has a significant interest in supervising the
administration of the judicial system,” and therefore may use
its supervisory power to prescribe rules for the lower federal
courts. Hollingsworth v. Perry, 558 U.S. 183, 196 (2010). “The
Court’s interest in ensuring compliance with proper rules
of judicial administration is particularly acute when those
rules relate to the integrity of judicial processes.” Id. This
case weighs on the integrity and legitimacy of the judicial
process, and the Court should exercise its supervisory power
to direct the Eleventh Circuit to reconsider its rejection of
a self-described meritorious argument that disposed of the
case, and to apply the proper standard for abandonment as
established by this Court.
The Eleventh Circuit held that the Trust had
abandoned its argument that the district court should not
decide the champerty issue on a motion to dismiss, because

18
“the Litigation Trust does not raise any procedural
objections to the district court’s handling of the champerty
question.” App. A at 7a. But that simply was not true.
The Trust did raise the issue. It addressed the issue in
a full paragraph of the opening brief which cited leading
authority from New York’s highest court:
Moreover, New York law strongly discourages
findings of champerty at preliminary stages of
litigation. See Blue Bird Partners, 731 N.E.2d
at 586 (“while this Court has been willing to find
that an action is not champertous as a matter of
law, it has been hesitant to find that an action
is champterous as a matter of law”) (citations
omitted) (emphasis added).”
Br. at 34. Not only did the Trust raise the issue, it cited
the very case that the Eleventh Circuit cited for a closelyrelated legal principle. App. A at 6a (“New York law
treats champerty as an affirmative defense. . . Bluebird
Partners, L.P. v. First Fidelity Bank, N.A., 731 N.E.2d
581, 582 (N.Y. 2000)”). The Trust also raised the issue
elsewhere in the opening brief and again in its reply brief.
The Eleventh Circuit has previously stated that an
argument not briefed is considered abandoned “and its
merits will not be addressed.” Access Now, Inc., 385 F.3d
at 1330. That is the typical situation in which abandonment
is found: a court recognizes that certain arguments,
issues, or claims were not raised in the appellant’s brief
and does not consider their merits at all.
But that is not what happened here. Here, the opinion
did consider the merits of the Trust’s argument, and
found them to be convincing. The court stated that (i) “the

19
district court may have erred procedurally in definitively
resolving the question of champerty at the Rule 12(b)(1)
stage because that question likely implicated the merits
of the Litigation Trust’s claims” (App. A. at 6a); (ii) “there
is a strong argument that the district court should have
used the Rule 56 standard in addressing whether the
trust agreement was champertous under New York law”
(Id. at 7a); and (iii) that “this appeal might have come out
differently if it had been argued differently”. Id. at 18a.
Yet the court still affirmed the judgment, and finally
dismissed the case in its entirety. The result is that a
potentially meritorious claim of massive fraud and corruption
perpetrated against Venezuela’s major national asset may
never see its merits adjudicated, and the perpetrators of
the fraud will walk away with their ill-gotten gains. Such a
victory, based on a technicality, may raise serious questions
about the legitimacy of the judicial process.
If a court of appeals addresses an issue that it deemed
not adequately briefed, it need not write a great deal, or
it may not analyze the issue at all. Nor, as the Court has
previously explained, does a court need to attempt to
create a winning issue on appeal when that issue was not
argued or preserved in the district court. United States v.
Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020). 5 But a court
should not reject an admittedly meritorious argument
simply because the argument, although included in an
5. In its decision, the Eleventh Circuit cited Sineng-Smith
for the point that this case offered “no reason to depart from the
general principle of party presentation.” App. A at 8. However,
Sineng-Smith dealt with a situation in which the Ninth Circuit had
invited supplemental briefing on three issues that had not been
raised by either party at any stage of the litigation, and hence has
no application here.

20
appellant’s appeal briefs, was deemed not sufficiently
raised under a vaguely articulated standard, inconsistent
with the standards applied in other circuits, particularly
where, as here, the argument is dispositive of the appeal.
CONCLUSION
For the foregoing reasons, the Petition for a Writ
of Certiorari should be granted. Alternatively, because
the Eleventh Circuit’s decision found a sufficient basis to
vacate the district court’s decision, Petitioner respectfully
suggests that this case is an appropriate candidate for
summary disposition under Supreme Court Rule 16.1.
Respectfully submitted,
George F. Carpinello
Joseph D. Starsia
Boies Schiller
Flexner LLP
30 South Pearl Street,
11th Floor
Albany, New York 12207
(518) 434-0600

David Boies
Counsel of Record
Boies Schiller Flexner LLP
333 Main Street
Armonk, New York 10504
(914) 749-8200
dboies@bsfllp.com
David A. Barrett
Marilyn C. Kunstler
Boies Schiller Flexner LLP
55 Hudson Yards, 20th Floor
New York, New York 10001
(212) 446-2300

Counsel for Petitioner
Dated: October

, 2021

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED MARCH 18, 2021
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-10950
PDVSA US LITIGATION TRUST,
Plaintiff - Appellant,
versus
LUKOIL PAN AMERICAS, LLC, LUKOIL
PETROLEUM, LTD., COLONIAL OIL
INDUSTRIES, INC., COLONIAL GROUP, INC.,
GLENCORE, LTD., et al.,
Defendants - Appellees.
Appeal from the United States District Court
for the Southern District of Florida
D.C. Docket No. 1:18-cv-20818-DPG
March 18, 2021, Decided
Before JORDAN, TJOFLAT, and ANDERSON, Circuit
Judges.
JORDAN, Circuit Judge:

2a
Appendix A
This lawsuit involves an alleged multi-billion-dollar
conspiracy to defraud Petróleos de Venezuela, S.A., the
Venezuelan state-owned oil company known as PDVSA.
The scheme purportedly involved computer hacking
and payment of bribes by numerous corporations and
individuals to obtain PDVSA’s proprietary oil trading
information, and the use of that information to manipulate
the pricing of crude oil and hydrocarbon products.
But PDVSA, the purported victim of the fraudulent
scheme, did not sue the alleged perpetrators. Instead, an
entity called the PDVSA U.S. Litigation Trust filed suit,
alleging that it had authority to do so as an assignee of
PDVSA pursuant to a trust agreement which, through a
choice-of-law clause, is governed by New York law.
Following some discovery, the district court adopted
in part the report and recommendation of the magistrate
judge and dismissed the action without prejudice under
Rule 12(b)(1) of the Federal Rules of Civil Procedure for
lack of Article III standing. See PDVSA U.S. Litigation
Trust v. Lukoil Pan Americas LLC, 372 F. Supp. 3d
1353, 1359-61 (S.D. Fla. 2019). The court ruled that the
Litigation Trust did not properly authenticate the trust
agreement—it failed to authenticate three of the five
signatures in the agreement—and without an admissible
agreement it lacked standing. The court also concluded
that, even if the trust agreement were authenticated and
admissible, it was void as champertous under New York
law, specifically N.Y. Judiciary Law § 489. As a result,
the Litigation Trust did not have standing. See generally
MSPA Claims 1, LLC v. Tenet Florida, Inc., 918 F.3d 1312,

3a
Appendix A
1318 (11th Cir. 2019) (an assignee has standing “if (1) its
. . .assignor . . . suffered an injury-in-fact, and (2) [its] claim
arising from that injury was validly assigned”); Kenrich
Corp. v. Miller, 377 F.2d 312, 314 (3d Cir. 1967) (if an
assignment is champertous under state law, and therefore
“legally ineffective,” the assignee lacks standing to sue).
The Litigation Trust appealed. With the benefit of
oral argument, we now affirm.
I
Rule 901 of the Federal Rules of Evidence entails a
two-step process for determining authenticity. A “district
court must first make a preliminary assessment of
authenticity . . . , which requires a proponent to make out
a prima facie case that the proffered evidence is what it
purports to be.” United States v. Maritime Life Caribbean
Ltd., 913 F.3d 1027, 1033 (11th Cir. 2019) (involving the
authenticity of an assignment) (citation and internal
quotation marks omitted). “If the proponent satisfies this
‘prima facie burden,’ the inquiry proceeds to a second step,
in which the evidence may be admitted, and the ultimate
question of authenticity is then decided by the [factfinder].”
Id. (citation and internal quotation marks omitted). At
the first step of the process, it is inappropriate for the
district court to place on the proponent of the evidence
the burden of showing authenticity by a preponderance
of the evidence. See id. (“By requiring Maritime to prove
authenticity by ‘the greater weight of the evidence,’ the
district court compressed the two steps of the inquiry
under Rule 901 into one and conf lated the issue of
authenticity with [the merits].”).

4a
Appendix A
The magistrate judge stated that the Litigation Trust
had the “burden of proving” the authenticity of the trust
agreement and concluded that it had not carried that
burden because it failed to authenticate the signatures on
the agreement. See D.E. 636 at 11, 18. The district court
noted the burden of proof used by the magistrate judge
and agreed that the trust agreement was inadmissible:
“The [c]ourt finds that [the Litigation Trust] has failed
to establish the admissibility of the [t]rust [a]greement.”
PDVSA, 372 F. Supp. 3d at 1360.
We have not addressed whether or how the two-step
authenticity process described in cases like Maritime
Life should be applied in a Rule 12(b)(1) context where
the defendant’s attack on subject-matter jurisdiction is
factual, and where the district court is permitted to act
as the ultimate decision-maker on jurisdictional facts.
Some district courts have ruled that on a motion to dismiss
for lack of subject-matter jurisdiction they “may only
consider evidence which would be of testimonial value at
trial.” Dr. Beck & Co. G.M.B.H v. General Electric Co.,
210 F. Supp. 86, 92 (S.D.N.Y. 1962), aff’d, 317 F. 2d 338
(2d Cir. 1963). Others have said that, at the Rule 12(b)(1)
stage, a court cannot consider evidence which has “not
been authenticated in some proper manner.” Research
Inst. for Medicine and Chemistry, Inc. v. Wis. Alumni
Research Found., Inc., 647 F. Supp. 761, 773 n.8 (W.D. Wis.
1986). It is difficult to know from the short discussions in
these cases whether the district courts were speaking
of authentication in a prima facie sense or in a final
admissibility sense. And the few treatises that speak to
the matter are not very helpful because they focus on the

5a
Appendix A
evidence’s ultimate admissibility at trial. See, e.g., 61A
Am. Jur. 2d, Pleading § 495 (Feb. 2021 update) (“[I]n some
[cases], it has been decided that the court may consider
only evidence which would be admissible at trial.”).
We need not address the interplay between Rule 901
and Rule 12(b)(1) today, for we assume without deciding
that the Litigation Trust made out a prima facie case of
authenticity for the trust agreement at the Rule 12(b)
(1) proceedings, and that this prima facie showing was
sufficient. Cf. Itel Capital Corp. v. Cups Coal Co. Inc.,
707 F.2d 1253, 1259 (11th Cir. 1983) (“[U]nder Rule 901,
proving the signature of a document is not the only way
to authenticate it.”). We therefore also assume, again
without deciding, that the district court erred by ruling
that the trust agreement was inadmissible. That leaves
the district court’s alternative champerty ruling, to which
we now turn.
II
Our cases hold that claims “should not be dismissed
on motion for lack of subject-matter jurisdiction when
that determination is intermeshed with the merits of
the claims and there is a dispute as to a material fact.”
Lawrence v. Dunbar, 919 F.2d 1525, 1531 (11th Cir. 1990).
“When the jurisdictional basis of a claim is intertwined
with the merits, the district court should apply a Rule 56
summary judgment standard when ruling on a motion to
dismiss which asserts a factual attack on subject-matter
jurisdiction.” Id. at 1530. Cf. Culverhouse v. Paulson & Co.,
Inc. 813 F.3d 991, 994 (11th Cir. 2016) (“[I]n reviewing the

6a
Appendix A
standing question, the court must be careful not to decide
the questions on the merits for or against the plaintiff,
and must therefore assume that on the merits the plaintiff
would be successful in their claims.”) (citation and internal
quotation marks omitted).1
Based on our review of the record, the district court
may have erred procedurally in definitively resolving the
question of champerty at the Rule 12(b)(1) stage because
that question likely implicated the merits of the Litigation
Trust’s claims. As it turns out, however, the Litigation
Trust does not make this procedural argument on appeal.
A
Rule 8(c) of the Federal Rules of Civil Procedure
provides that “illegality” is an affirmative defense. And
New York law treats champerty as an affirmative defense.
See, e.g., Justinian Capital SPC v. WestLB AG, 28 N.Y.3d
160, 43 N.Y.S.3d 218, 65 N.E.3d 1253, 1255 (N.Y. 2016);
Bluebird Partners, L.P. v. First Fidelity Bank, N.A., 94
N.Y.2d 726, 731 N.E.2d 581, 582, 709 N.Y.S.2d 865 (N.Y.
2000); Krusch v. Affordable Housing, LLC, 266 A.D.2d
122, 698 N.Y.S. 2d 674, 674 (App. Civ. 1st Dept. 1999);
Phoenix Light SF Ltd. v. U.S. Bank Nat’l Ass’n, F. Supp.
3d , 2020 U.S. Dist. LEXIS 46950, 2020 WL 1285783, at
*11 (S.D.N.Y. 2020). Indeed, if an assignment or agreement
is champertous under New York law it is null and void
1. The magistrate judge put the parties on notice of our
precedent at one of the hearings in the case. See D.E. 423 at 22
(explaining that “very frequently issues related to standing are
intertwined with issues related to the merits”).

7a
Appendix A
and cannot be enforced or sued upon. See, e.g., Bluebird
Partners, 731 N.E. 2d at 587; Elliott Assocs., L.P. v.
Republic of Peru, 948 F. Supp. 1203, 1208 (S.D.N.Y. 1996).
Because champerty likely implicated the merits of the
claims brought by the Litigation Trust, there is a strong
argument that the district court should have used the Rule
56 standard in addressing whether the trust agreement
was champertous under New York law. See, e.g., Morrison
v. Amway Corp., 323 F. 3d 920, 927-30 (11th Cir. 2003). But
we do not reverse on this ground because the Litigation
Trust does not raise any procedural objections to the
district court’s handling of the champerty question.
The Litigation Trust argued to the magistrate judge
that champerty is a fact-intensive issue which must be
decided by a jury. See D.E. 636 at 23 n.16. Yet on appeal
the Litigation Trust does not contend that the district
court committed procedural error by failing to employ
the Rule 56 standard in addressing the affirmative
defense of champerty. Instead, although it acknowledges
that champerty is an affirmative defense, it takes the
champerty ruling head on and asks us to hold that the
assignment was not champertous under New York law. See
Appellant’s Br. at 32-33 & n. 13 (arguing that the district
court committed clear error in finding that the clear
purpose of the trust agreement was to bring this lawsuit).
We normally decide cases and issues as framed by
the parties, and the Litigation Trust has abandoned
any procedural objections to the champerty ruling by
not raising them in its brief. See Sapuppo v. Allstate

8a
Appendix A
Floridian Ins. Co., 739 F.3d 678, 680 (11th Cir. 2014)
(collecting several Eleventh Circuit cases holding that a
party abandons an issue by not briefing it). In a case like
this one—involving sophisticated litigants represented
by able counsel—there is no reason to depart from the
general principle of party presentation, and we decline
to take up sua sponte the district court’s failure to apply
the Rule 56 standard. See United States v. SinenengSmith, 140 S. Ct. 1575, 1579, 206 L. Ed. 2d 866 (2020)
(“In our adversarial system, we follow the principle of
party presentation . . . . [W]e rely on the parties to frame
the issues for decision and assign to courts the role of
neutral arbiter of matters the parties present.”) (citation
and internal quotation marks omitted). Like the district
court, then, we address champerty on the merits.
B
The Litigation Trust was created in 2017 by PDVSA,
as both the grantor and beneficiary under New York
law, so that the litigation efforts to hold the defendants
“accountable could proceed without interference from the
political and economic instability and rampant corruption
in Venezuelan government and society.” Appellant’s Br.
at 2-3. The Litigation Trust has two New York trustees
(appointed by the Trust’s counsel) and one Venezuelan
trustee. All costs and expenses of the litigation against
the defendants are borne by the Trust’s counsel. Any
recoveries or proceeds will be divided between PDVSA
(which receives 34%) and the Trust’s counsel, investigator,
and financier (who collectively receive the remaining 66%).

9a
Appendix A
The trust agreement, dated July of 2017, was
purportedly executed in August of 2017. Under the terms
of the trust agreement, PDVSA assigned its claims against
the defendants to the Litigation Trust so that they could
be pursued by the Trust in the United States.
PDVSA’s president and board of directors did not
approve the trust agreement. The signatories of the
agreement were two Venezuelan government officials,
Nelson Martinez (a former Venezuelan oil minister) and
Reynaldo Muñoz Pedrosa (an attorney general for civil
matters); Alexis Arellano, a PDVSA-designated trustee;
and Edward Swyer and Vincent Andrews, two American
trustees. The Venezuelan government officials who signed
the trust agreement were members of the administration
of President Nicolas Maduro, which the United States
had formally recognized as Venezuela’s government at
the time. 2
As relevant here, N.Y. Judiciary Law § 489(1) provides
that “no corporation or association . . . shall solicit, buy, or
take an assignment of . . . a bond, promissory note, bill of
exchange, book debt, or other thing in action, or any claim
or demand, with the intent and for the purpose of bringing
an action or proceeding thereon[.]” The New York Court
of Appeals recently explained that the “statue prohibits
the purchase of notes, securities, or other instruments or
claims with the intent and for the purpose of bringing a
lawsuit.” Justinian Capital, 65 N.E.3d at 1254.
2. President Trump later recognized Juan Guaidó, the
President of the Venezuelan National Assembly, as the Interim
President of Venezuela.

10a
Appendix A
Whether an agreement is champertous “is a mixed
question of law and fact,” 14 C.J.S., Champerty and
Maintenance § 26 (Feb. 2021 update), and a number of
New York cases have reversed summary judgment rulings
on champerty because there were underlying disputes
of material fact (usually regarding the transaction’s
“primary purpose”). Take, for example, the decision of
the New York Court of Appeals in Bluebird Partners,
731 N.E.2d at 587: “We are satisfied that the record here
does not support a finding of champerty as a matter of law
for summary disposition. It cannot be determined on this
record and in this procedural posture that champerty was
the primary motivation, no less the sole basis, for all this
strategic jockeying and financial positioning.”
But, as noted, the Litigation Trust does not make
any Rule 56-type arguments on appeal. So we treat the
champerty ruling as one made by the district court as
the ultimate decision-maker, and review any underlying
factual findings for clear error (as the Litigation Trust
asks us to do). See generally Cooper v. Harris, 137 S. Ct.
1455, 1465, 197 L. Ed. 2d 837 (2017) (explaining that, under
the clear error standard, “[a] finding that is ‘plausible’
in light of the full record—even if another is equally or
more so—must govern”). On this basis, we affirm the
district court’s conclusion that the trust agreement was
champertous under New York law.
The district court found, on the evidence before it,
that the primary purpose of the trust agreement was to
“facilitate the prosecution and resolution” of the assigned
claims and to liquidate the Litigation Trust’s “assets

11a
Appendix A
with no objective to continue or engage in the conduct
of a trade or business.” PDVSA, 372 F. Supp. 3d at 1360.
This factual finding was not clearly erroneous. First, the
trust agreement’s own language states in the same words
that this was the primary purpose. See D.E. 517-4 at §
2.5(a). Second, one of the Litigation Trust’s lead attorneys
testified at his deposition that the trust agreement was
executed by the parties for “purposes of pursuing claims
that are the subject matter of this litigation, among
others.” D.E. 573-1 at 11. Third, the Litigation Trust
was not a pre-existing entity with a separate commercial
existence. Fourth, only 34% of any recovery goes to
PDVSA, with the remaining amount divided between the
Litigation Trust’s attorneys, investigator, and financier.
Contrary to the Litigation Trust’s argument, the fact
that some of the ultimate beneficiaries of the litigation
(at least to the tune of 34% of the recovery) may be the
Venezuelan people does not detract from the fact that the
trust agreement was created to allow a third party—the
Trust—to sue on claims that belonged to PDVSA. And
even if one accepts that the trust agreement also served
the facilitation of cooperation with law enforcement and
the engagement of investigators to look further into
other improper conduct (as one of the Litigation Trust’s
lead attorneys testified) that does not make the district
court’s finding clearly erroneous. The same goes for
the Litigation Trust’s contention that the 34%-66% fee
structure is reasonable. See Cooper, 137 S. Ct. at 1465.
“Where there are two permissible views of the evidence,
the factfinder’s choice between them cannot be clearly
erroneous.” Anderson v. City of Bessemer City, 470 U.S.
564, 574, 105 S. Ct. 1504, 84 L. Ed. 2d 518 (1985).

12a
Appendix A
The district court also correctly applied New York law.
We come to that conclusion based on Justinian Capital,
65 N.E.3d at 1258-59. In that case, the New York Court of
Appeals confronted a similar arrangement and concluded
on summary judgment that it was champertous under N.Y.
Judiciary Law § 489(1).
In Justinian Capital, a company called DPAG
purchased from two special purposes companies
(whom we’ll collectively call Blue Heron) notes worth
approximately € 180 million. DPAG’s portfolio was
managed by WestLB, a bank partly owned by the German
government. When the notes lost most of their value,
DPAG—which was receiving financial support from
the German government—did not want to sue WestLB
because of a concern that the German government might
end its support for DPAG. So DPAG turned to Justinian
Capital, a Cayman Islands company with few or no assets.
See Justinian Capital, 65 N.E.3d at 1254.
Justinian Capital proposed a business plan in which
it would purchase the notes from DPAG, commence
litigation (by partnering with law firms) to recover the
losses on the investment, and remit the recovery from
the litigation to DPAG “minus a [20%] cut[.]” See id. at
1254-55. DPAG subsequently entered into a sale and
purchase agreement by which it assigned the notes to
Justinian Capital, which in turn agreed to pay DPAG a
base purchase price of $1 million. The assignment of the
notes, however, was not contingent on Justinian Capital’s
payment of the purchase price, and failure to pay did not
constitute a breach or default of the agreement. The only

13a
Appendix A
consequences of Justinian Capital’s failure to pay the $1
million by the due date were that interest would accrue
on the purchase price and that Justinian Capital’s share
of the proceeds of litigation would decrease from 20% to
15%. At the time Justinian Capital instituted suit against
WestLB, it had not paid any portion of the $1 million and
DPAG had not demanded payment. See id. at 1255.
The New York Court of Appeals held that the
assignment from DPAG to Justinian Capital was
champertous because the impetus was DPAG’s desire to
sue WestLB for the decline in the value of the shares and
not be named as a plaintiff in the action. And Justinian
Capital’s business plan was to acquire investments that
suffered major losses in order to sue on them. There
was no evidence, the Court of Appeals concluded, that
Justinian Capital’s acquisition of the notes from DPAG
“was for any purpose other than the lawsuit it initiated
almost immediately after acquiring the notes[.]” Id. at
1257. Significantly, the Court of Appeals dismissed as
speculative the testimony of Justinian Capital’s principal
that there might be other possible sources of recovery on
the notes: “Here, the lawsuit was not merely an incidental
or secondary purpose of the assignment, but its very
essence. [Justinian Capital’s] sole purpose in acquiring the
notes was to bring this action and hence, its acquisition
was champertous.” Id.
The same is true here. As the district court found, the
Litigation Trust’s primary purpose in acquiring PDVSA’s
claims was to bring this action.

14a
Appendix A
C
Trying to avoid the force of Justinian Capital, the
Litigation Trust makes a number of arguments. We find
them unpersuasive.
The Litigation Trust says that it is closely related
to PDVSA, and therefore not a stranger or “officious
intermeddler.” See FragranceNet.com, Inc. v. FragranceX.
com, 679 F. Supp. 2d 312, 319 n.9 (E.D.N.Y. 2010)
(explaining, in the context of a parent and subsidiary, that
champerty bars the “acquisition of a cause of action by a
stranger to the underlying dispute”). It describes itself
as a fiduciary of PDVSA which does not stand to profit
from the litigation.
On this record, the argument fails. The Litigation
Trust was a new entity created for the purpose of
obtaining and litigating PDVSA’s claims, and as a result
was a stranger to the underlying disputes with the
defendants. See BSC Assocs. v. Leidos, Inc., 91 F. Supp.
3d 319, 328 (N.D.N.Y. 2015) (“Here, Plaintiff—which did
not exist prior to February 2014 and was formed solely to
‘retain’ this cause of action from BSC Partners—clearly
did not have a proprietary interest in the Subcontract
underlying this action that predates the transfer of claims
to Plaintiff.”). And there is no claim that PDVSA—the
purported assignor of claims—owns or controls the
Litigation Trust or that the Trust is a subsidiary or related
entity of PDVSA. Finally, given that the Litigation Trust
is a pass-through for 64% of the proceeds to go to its
counsel, investigator, and financier, it matters little that

15a
Appendix A
the Trust itself is not going to reap an economic benefit
from the litigation.
The Litigation Trust also asserts that § 489(1)
does not apply because it is not a collection agency or a
corporation, and does not qualify as an “association.” We
reject this argument, as the New York Court of Appeals
has explained that “association” is a “broad term which
may be used to include a wide assortment of differing
organizational structures including trusts, depending
on the context.” Mohonk Trust v. Board of Assessors, 47
N.Y.2d 476, 392 N.E.2d 876, 879, 418 N.Y.S.2d 763 (N.Y.
1979). Given that § 489(1) lists “trustees” as one of the
persons or entities who can violate the statute’s general
prohibition on champerty, the context here permits the
application of the champerty bar to the trust agreement.
Finally, the Litigation Trust argues that it comes
within § 489(2), the champerty statute’s “safe harbor”
provision. This provision states that the champerty bar in
§ 489(1) is inapplicable if the “aggregate purchase price”
of a claim is at least $500,000. The Litigation Trust says
that it was prevented from presenting evidence that its
counsel had spent over $500,000 in fees and costs, for the
benefit of PDVSA, even before the assignment of claims.
The magistrate judge and the district court rejected
the Litigation Trust’s “safe harbor” argument because
there was no evidence of any payment from the Litigation
Trust to PDVSA. See PDVSA, 372 F. Supp. 3d at 1361; D.E.
636 at 22-23. We come to the same conclusion.

16a
Appendix A
In Justinian Capital, the New York Court of Appeals
held that the “phrase ‘purchase price’ in [§] 489(2) is
better understood as requiring a binding and bona fide
obligation to pay $500,000 or more of notes or securities,
which is satisfied by actual payment of at least $500,000
or the transfer of financial value worth at least $500,000
in exchange for the notes or other securities.” 65 N.E.3d
at 1258. The expenditure by the Litigation Trust or its
counsel of fees and costs for the litigation, even if they
exceeded $500,000, did not constitute a contractual
“purchase price.” There were no underlying instruments
or claims valued at or transferred for more than $500,000,
and there was no obligation on the Litigation Trust or
its counsel to spend $500,000 or more for the costs of
litigation.
Moreover, none of the Litigation Trust’s expenditures
for litigation costs flowed to PDVSA. As an entity, PDVSA
was no better off financially due to the footing of litigation
costs by the Litigation Trust or its counsel, and it still had
to wait until the Trust succeeded on the assigned claims
to reap any contingent monetary benefit. Cf. id. at 1259
(“[B]ecause Justinian [Capital] did not pay the purchase
price or have a binding and bona fide obligation to pay the
purchase price of the notes independent of the successful
outcome of the lawsuit, [it] is not entitled to the protections
of the safe harbor.”).
We also think the defendants may be correct in
asserting that the Litigation Trust’s interpretation of
§ 489(2) could threaten to swallow much of § 489(1). An
otherwise-champertous transaction, no matter the value

17a
Appendix A
of the assigned instruments or the lack of a binding
obligation to pay a purchase price of $500,000 or more,
would be immunized under New York law if the assignee
simply spent over $500,000 in litigation expenses.
III
This appeal might have come out differently had it
been argued differently. But on the issues presented to us,
we affirm the district court’s dismissal of the Litigation
Trust’s complaint without prejudice for lack of standing.
AFFIRMED.

18a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, MIAMI DIVISION,
FILED MARCH 8, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
CASE NO. 18-20818-CIV-GAYLES/OTAZO-REYES
PDVSA U.S. LITIGATION TRUST,
Plaintiff,
v.
LUKOIL PAN AMERICAS LLC, et al.,
Defendants.
March 8, 2019, Decided
March 8, 2019, Entered on Docket
ORDER
THIS CAUSE comes before the Court on Defendants’
Motion to Dismiss for Lack of Standing (the “Motion”)
[ECF Nos. 517, 522 (under seal)].1 The action was referred
1. The moving Defendants are Lukoil Pan Americas LLC;
Colonial Oil Industries, Inc.; Colonial Group, Inc.; Paul Rosado;
Glencore Ltd..; Glencore Energy UK Ltd.; Gustavo Gabaldon; Sergio
de la Vega; Vitol Energy (Bermuda) Ltd.; Vitol, Inc.; Trafigura
Tradng, LLC, Francisco Morillo; Leonardo Baquero; Daniel Lutz;

19a
Appendix B
to Magistrate Judge Alicia Otazo-Reyes, pursuant to 28
U.S.C. § 636(b)(1)(B), for a ruling on all pretrial, nondispositive matters, and for a Report and Recommendation
on any dispositive matters. [ECF No. 220]. Following
limited discovery, briefing, and an evidentiary hearing on
August 2 and 3, 2018, Judge Otazo-Reyes issued her report
finding that Plaintiff has no standing and recommending
that the Court dismiss this action for lack of subject matter
jurisdiction (the “Report”) [ECF No. 636]. Plaintiff has
timely objected to the Report [ECF No. 646]. 2
BACKGROUND3
Petróleos de Venezuela, S.A . (“PDVSA”) is a
Venezuelan state-owned energy company. [ECF No. 12 at
¶ 1]. According to the Amended Complaint, Defendants4
Luis Liendo; John Ryan; Helsinge Holdings, LLC; Helsinge,
Inc.; Helsinge Ltd; Maximiliano Poveda; Luis Alvarez; Antonio
Maarraoui; and BAC Florida Bank.

2. Defendants filed a response to the objections [ECF No. 652]
and Plaintiff filed a reply [ECF No. 655]. On January 29, 2019, the
Court directed the parties to address whether the United States
Department of the Treasury’s designation of Petroleos de Venezuela,
S.A. (“PDVSA”), pursuant to Executive Order 13850, has any bearing
on the Motion. In their supplemental responses, the parties agreed
that Executive Order 13850 does not invalidate the assignment.
[ECF Nos. 668, 669].
3. The Court incorporates the Report’s recitation of the factual
and procedural background.
4. The named Defendants are: Lukoil Pan Americas LLC;
Lukoil Petroleum Ltd.; Colonial Oil Industries, Inc.; Colonial Group,
Inc.; Glencore Ltd.; Glencore International A.G.; Glencore Energy

20a
Appendix B
conspired to deprive PDVSA of competitive prices for the
sale and purchase of oil products and additives causing
billions of dollars in damages. [ECF No. 12]. Based on
these allegations, PDVSA has standing to bring the claims
against Defendants. However, for reasons too speculative
to address in this Order, PDVSA assigned its interest
in the claims to Plaintiff PDVSA US Litigation Trust
(“Plaintiff”) via a Litigation Trust Agreement (the “Trust
Agreement”). [ECF No. 517-4]. Without this assignment,
Plaintiff has no standing.
Assignees, in general, may obtain Article III standing
by virtue of a valid assignment. See Sprint Commc’n
Co., L.P. v. APCC Servs., Inc., 554 U.S. 269, 128 S. Ct.
2531, 171 L. Ed. 2d 424 (2008). The assignment in this
action, however, is of questionable authenticity and
legality. Indeed, the very individuals who could testify
as to the authenticity of their signatures on the Trust
Agreement are unavailable, in part, due to political unrest
in Venezuela. 5 And, even if Plaintiff could authenticate
UK Ltd.; Masefield A.G.; Trafigura A.G.; Trafigura Trading LLC;
Trafigura Beheer B.V.; Vitol Energy (Bermuda) Ltd.; Vitol S.A.;
Vitol, Inc.; Francisco Morillo; Leonardo Baquero; Daniel Lutz;
Luis Liendo; John Ryan; Helsinge Holdings, LLC; Helsinge, Inc.;
Helsinge Ltd., Saint-Hélier; Waltrop Consultants, C.A.; Godelheim,
Inc.; Hornberg Inc.; Societe Doberan, S.A.; Societe Hedisson, S.A.;
Societe Hellin, S.A.; Glencore de Venezuela, C.A.; Jehu Holding lnc.;
Andrew Summers; Maximiliano Poveda; Jose Larocca; Luis Alvarez;
Gustavo Gabaldon; Sergio De La Vega; Antonio Maarraoui; Campo
Elias Paez; Paul Rosado; BAC Florida Bank; EFG International
A.G.; and Blue Bank International N.V.

5. The record is replete with allegations that key witnesses
could not travel or be deposed due to political upheaval and bans

21a
Appendix B
the Trust Agreement, it violates New York’s ban on
champerty. Finally, the Venezuelan National Assembly
has declared that the Trust Agreement is invalid and
unconstitutional. This unequivocal declaration by the only
governing body in Venezuela recognized by the United
States, the questionable authority of the Venezuelan
officials who signed the Trust Agreement, and the
political unrest in Venezuela exemplify the problems with
Plaintiff’s purported standing. While the Court is mindful
of the suffering of the people of Venezuela6 and severity
of the allegations against Defendants, it cannot create
standing where there is none. Plaintiff has no standing
and is not the proper party to bring these claims.
DISCUSSION
A district court may accept, reject, or modify a
magistrate judge’s report and recommendation. 28
U.S.C. § 636(b)(1). Those portions of the report and
recommendation to which objection is made are accorded
de novo review, if those objections “pinpoint the specific
findings that the party disagrees with.” United States
on travel in Venezuela. In addition, since this litigation was filed,
the United States withdrew its recognition of Nicolas Maduro as
the president of Venezuela and officially recognized the President
of the National Assembly, Juan Guaidó, as the Interim President of
Venezuela and affirmed its support of the National Assembly as “the
only legitimate branch of government duly elected by the Venezuelan
people.” [ECF No. 665-1].

6. As discussed below, even if Plaintiff had standing and
prevailed on its claims, PSDVA would only receive 34% of the
recovery. See infra § IV.

22a
Appendix B
v. Schultz, 565 F.3d 1353, 1360 (11th Cir. 2009); see also
Fed. R. Civ. P. 72(b)(3). Any portions of the report and
recommendation to which no specific objection is made
are reviewed only for clear error. Liberty Am. Ins. Grp.,
Inc. v. WestPoint Underwriters, L.L.C., 199 F. Supp. 2d
1271, 1276 (M.D. Fla. 2001); accord Macort v. Prem, Inc.,
208 F. App’x 781, 784 (11th Cir. 2006).
In her Repor t, Judge Otazo -Reyes made the
following findings: (1) the issue of Plaintiff’s standing is
jurisdictional as opposed to prudential; (2) Plaintiff failed
to carry its burden of proving the admissibility of the Trust
Agreement; (3) Defendants have standing to challenge the
validity of PDVSA’s purported assignment of its claims
to Plaintiff; (4) the Trust Agreement is void under New
York law; and (5) the Trust Agreement is invalid under
Venezuelan law. Judge Otazo-Reyes declined to address
the Act of State or political question doctrines and their
applicability to the issue of Plaintiff’s standing. The Court
has conducted a de novo review of the record and the law
and agrees, in part, with the Report’s recommendations
as set forth below.
I.

Standing

“[T]he doctrine of standing serves to identify those
disputes which are appropriately resolved through the
judicial process.” Whitmore v. Arkansas, 495 U.S. 149,
155, 110 S. Ct. 1717, 109 L. Ed. 2d 135 (1990). To establish
Article III constitutional standing, “the plaintiff must
show an ‘injury in fact’ that is ‘fairly traceable’ to the
defendant’s conduct and ‘that is likely to be redressed

23a
Appendix B
by a favorable judicial decision.’” Bank of Am. Corp. v.
City of Miami, Fla., 137 S. Ct. 1296, 1302, 197 L. Ed.
2d 678 (2017) (quoting Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547, 194 L. Ed. 2d 635 (2016)). The “irreducible
constitutional minimum of standing” requires an “injury
in fact” that is both “concrete and particularized,” and
“actual or imminent, not conjectural or hypothetical.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560, 112 S. Ct.
2130, 119 L. Ed. 2d 351 (1992) (citations and internal
quotation marks omitted).
In addition to Article III standing, a plaintiff must
have prudential standing. Prudential standing does not
relate to the Court’s constitutional power to adjudicate
the case. See Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 134 S. Ct. 1377, 188 L.
Ed. 2d 392 (2014). Rather, it encompasses “three broad
principles: the general prohibition on a litigant’s raising
another person’s legal rights, the rule barring adjudication
of generalized grievances more appropriately addressed
in the representative branches, and the requirement that
a plaintiff’s complaint fall within the zone of interests
protected by the law invoked.” Id. at 126 (internal
quotations and citations omitted).
As Judge Otazo-Reyes correctly concluded in her
Report, the Court must first determine if Plaintiff
has Article III standing before it evaluates prudential
standing.7 See Sprint, 554 U.S. at 289 (first addressing
7. Because the Court finds Plaintiff does not have Article III
standing, which a Court may address sua sponte , it does not address
Plaintiff’s arguments that Defendants have no standing to challenge

24a
Appendix B
whether the assignees had Article III standing before
addressing prudential concerns). Plaintiff’s sole basis
for standing is the assignment set forth in the Trust
Agreement. “[T]he assignee of a claim has standing
to assert the injury in fact suffered by the assignor.”
Vermont Agency of Natural Res. v. U.S. ex rel. Stevens,
529 U.S. 765, 773, 120 S. Ct. 1858, 146 L. Ed. 2d 836 (2000).
However, if the Trust Agreement is inadmissible or void,
Plaintiff cannot establish that it suffered an injury in
fact sufficient to establish constitutional standing. See US
Fax Law Center, Inc. v. iHire, Inc., 476 F.3d 1112, 1120
(10th Cir. 2007) (finding no Article III standing where the
assignment was invalid under Colorado law because “an
invalid assignment defeats standing if the assignee has
suffered no injury in fact himself.”); MSP Recovery, LLC
v. Allstate Ins. Co., 276 F. Supp. 3d 1311, 1317 (S.D. Fla.
2017) (dismissing action for lack of Article III standing
where assignment was invalid); MAO-MSO Recovery II,
LLC v. Boehringer Ingelheim Pharmaceuticals, Inc., 281
F. Supp. 3d 1278, 1282 (S.D. Fla. 2017).
II. Admissibility of the Trust
The Court agrees with the Report’s finding that the
Trust Agreement is inadmissible. The Trust Agreement
the assignment. See FW/PBS, Inc. v. City of Dallas, 493 U.S. 215,
231, 110 S. Ct. 596, 107 L. Ed. 2d 603 (1990) (“The federal courts are
under an independent obligation to examine their own jurisdiction,
and standing is perhaps the most important of [the jurisdictional]
doctrines.”) (internal quotations and citations omitted); Bochese v.
Town of Ponce Inlet, 405 F.3d 964, 975 (11th Cir. 2005) (“[The Court
is] obliged to consider questions of standing regardless of whether
the parties have raised them.”).

25a
Appendix B
contains five signatures: (1) Alexis Arellano, the PDVSA
Appointed Litigation Trustee; (2) Edward P. Swyer, a
US Law Firm Appointed Litigation Trustee; (3) Vincent
Andrews, a US Law Firm Appointed Litigation Trustee;
(4) Nelson Martínez, the former Venezuelan Petroleum
Minister; and (5) Reinaldo Muñoz Pedroza, the Venezuelan
Procurador General. Only Mr. Andrews and Mr. Swyer,
the US Law Firm appointees, acknowledged their
signatures on the Trust Agreement. 8 Plaintiff was unable
to authenticate the other three signatures, including
anyone with authority to take action on behalf of PDVSA.9
Mr. Arellano never acknowledged his signature and never
appeared for deposition.10 Just before the hearing, Plaintiff
submitted an acknowledgement of signature and apostille
for Mr. Pedroza. However, Defendants were not able to
8. Mr. Andrews and Mr. Swyer also signed Amendment
Number One to the Trust Agreement which eliminated from the
Trust Agreement the second US Law Firm Appointer and replaced
the Trust Agreement’s definition of “PDVSA Appointer” from “The
Minister of the People’s Petroleum Power” to “The President of
PDVSA.” See Trust Agreement, Pl.’s Ex. 1 at 1, 8; Amendment One
Pl. Ex. 2 at 1, 2.
9. Defendants’ Venezuelan law experts contend that neither Mr.
Martinez nor Mr. Pedroza had the authority to execute the Trust
Agreement on behalf of PDVSA.
10. Less than two days before the hearing, Plaintiff attempted
to introduce a “Notice of Appointment of Successor Trustee,”
appointing Marcos Rojas as a successor trustee to Mr. Arellano.
Plaintiff also sought to introduce Mr. Rojas as a witness. Judge
Otazo-Reyes excluded the evidence as untimely. [ECF No. 564].
The Court affirms Judge Otazo-Reyes’s decision to exclude the
evidence and, therefore, overrules Plaintiff’s Objections set forth
at ECF No. 600.

26a
Appendix B
depose Mr. Pedroza because, according to Plaintiff, then
President Maduro had restricted the travel of government
officials. Because Defendants were not provided the
opportunity to depose Mr. Pedroza as to his eleventh-hour
acknowledgment, Judge Otazo-Reyes excluded it from
consideration. Finally, at the hearing, Plaintiff attempted
to introduce Mr. Martinez’s alleged acknowledgement of
his signature, signed on August 1, 2018, one day before
the hearing. On Defendants’ motion, Judge Otazo-Reyes
excluded the acknowledgement as untimely.11
Plaintiff then tried to authenticate the signatures
on the Trust Agreement via the testimony of George
Carpinello, Plaintiff ’s counsel. Judge Otazo-Reyes
properly precluded Mr. Carpinello from testifying. See
Putman v. Head, 268 F.3d 1223, 1246 (11th Cir. 2001)
(“rules of professional conduct generally disapprove of
lawyers testifying at proceedings in which they are also
advocates.”). Finally, Plaintiff endeavored to authenticate
the signatures via a handwriting expert, Ruth Brayer. The
Court agrees with the Report’s finding that Ms. Brayer’s
proffered opinions do not meet Daubert standards.
Accordingly, the Court finds that Plaintiff has failed
to establish the admissibility of the Trust Agreement.
Without an admissible Trust Agreement, Plaintiff cannot
establish its Article III standing and this action must be
dismissed for lack of subject matter jurisdiction.
11. Plaintiff has objected to Judge Otazo-Reyes’s Order
Striking Mr. Martinez’s Acknowledgment [ECF No. 565]. The Court
agrees with Judge Otazo-Reyes’s decision to exclude the evidence
and, therefore, overrules Plaintiff’s Objections set forth at ECF
No. 601.

27a
Appendix B
III. Sanctions
Judge Otazo-Reyes also excluded the Trust as a
sanction for Plaintiff’s failure to comply with standing
discovery. While the Court acknowledges Plaintiff’s
repeated discovery violations, often followed by dubious
excuses, it does not find that the violations warrant the
extreme sanction of excluding the Trust Agreement.
This issue, however, is moot, as the Court finds the Trust
Agreement inadmissible.12
IV. The Trust is Void under New York Law on
Champerty
The Court agrees with the Report’s finding that,
even if it were admissible, the assignment in the Trust
Agreement is void under New York law.13 New York’s
champerty statute expressly prohibits the assignment of
claims “with the intent and for the primary purpose of
bringing a lawsuit.” See Justinian Capital SPC v. WestLB
AG, 28 N.Y.3d 160, 43 N.Y.S.3d 218, 65 N.E. 3d 1253, 1254
(N.Y. 2016). See also Aretakis v. Caesars Entertainment,
No. 16-cv-8751, 2018 U.S. Dist. LEXIS 29552, 2018 WL
1069450, at *10 (S.D. Fla. 2018) (holding assignment was
12. Judge Otazo-Reyes has recommended that the Court grant
Defendants’ Motion for Order to Show Cause, for Sanctions and Other
Relief. [ECF No. 430]. The Court reserves ruling on the sanctions
motion and any award of fees until after Defendants have had an
opportunity to respond to Plaintiff’s objections to the Report and
Recommendation [ECF No. 670].
13. The Trust Agreement’s choice of law provision provides that
the Trust Agreement is governed by New York law.

28a
Appendix B
void where “portions of the purported assignment make
plain that the purpose of the assignment was to allow
Plaintiff to prepare and file a lawsuit seeking to obtain
the funds to which Plaintiff claims [assignor] is entitled.”).
Here, the “primary purpose” of the Trust Agreement
“is to facilitate the prosecution and resolution of the
Assigned Actions and to liquidate the Liquidation Trust
Assets with no objective to continue or engage in the
conduct of a trade or business.” [ECF No. 517-4]. Indeed,
only 34% of any recovery goes to PDVSA. The remaining
66% is split between Plaintiff’s lawyers, investigator, and
financier.14 The clear purpose of the Trust Agreement was
to bring this lawsuit — with attorneys and investors as the
primary beneficiaries. As a result, the Trust Agreement
is void under New York law and cannot provide a basis for
Plaintiff’s standing to bring this action.
Despite the choice of law provision in the Trust
Agreement, Plaintiff argues that New York law does not
apply where the transferred claims are federal claims.
This objection is without merit. Federal courts have
applied New York’s champerty ban to federal claims
filed in federal court. See Koro Company, Inc. v. BristolMyers Company, 568 F. Supp. 280, 288 (D.D.C. 1983)
(applying New York’s champerty law to the assignment
of an antitrust claim). Plaintiff also contends that the
champerty statute is inapplicable because Plaintiff is not
technically a “corporation” or an “association.” The Court
disagrees. See Mohonk Trust v. Board of Assessors, 47
14. The identities of Plaintiff’s investigator and financier and
the specifics of the financial arrangements were submitted to the
Court under seal.

29a
Appendix B
N.Y.2d 476, 392 N.E.2d 876, 879, 418 N.Y.S.2d 763 (N.Y.
1979) (“Although the word ‘corporation’ is strictly defined
in the law, the word ‘association’ is a broad term which
may be used to include a wide assortment of differing
organizational structures including trusts . . .”). Finally,
the Court agrees with the Report’s findings that the safe
harbor provisions in the champerty statute do not apply.15
V. Venezuelan Law and the Act of State Doctrine
Judge Otazo-Reyes, relying on the testimony of
Professor Jose Ignacio Hernandez, found that the Trust
Agreement was void under Venezuelan law because it was
a “public order obligation” that could not be transferred
to third parties. [ECF No. 570-2, ¶ 85]. Plaintiff has now
offered an untimely expert report to rebut Professor’s
Hernandez’s opinions. In light of the Court’s dispositive
rulings as to the admissibility of the Trust Agreement
and New York’s champerty law, it declines to make a
formal ruling on Venezuelan law. However, the Court notes
that the National Assembly’s declaration that the Trust
Agreement is unconstitutional certainly lends credence
to Judge Otazo-Reyes’s recommendation. Indeed, if the
Court were to hold otherwise, it would be ruling in direct
contravention to a resolution by a foreign sovereign —
likely in violation of the Act of State doctrine.

15. Because the Court finds that the Trust Agreement is void
under New York’s champerty law, it declines to address whether the
lack of certificates of acknowledgement violate New York Trust law
or whether the Trust Agreement fails to sufficiently define its corpus.

30a
Appendix B
The Act of State doctrine prevents courts from
adjudicating an action where “the relief sought or the
defense interposed . . . require[s] a court in the United
States to declare invalid the official act of a foreign
sovereign performed within its own territory.” W.S.
Kirkpatrick & Co., Inc. v. Environmental Tectonics
Corp., Int’l., 493 U.S. 400, 405, 110 S. Ct. 701, 107 L. Ed.
2d 816 (1990). The doctrine “‘is not some vague doctrine
of abstention but a principle of decision binding on federal
and state courts alike’; ‘the act within its own boundaries
of one sovereign State . . . becomes . . . a rule of decision for
the courts of this country.’” Federal Treasury Enterprise
Sojuzplodoimport v. Spirits Intern. B.V., 809 F.3d 737, 743
(2d Cir. 2016) (quoting W.S. Kirkpatrick & Co., 493 U.S. at
406); see also Glen v. Club Mediterranee, S.A., 450 F.3d
1251, 1253 (11th Cir. 2006) (“The act of state doctrine is
a judicially-created rule of decision . . .”). The doctrine
applies when an action cannot be decided without the
“court having to inquire into the legal validity” of a foreign
sovereign’s activity and conduct. Hourani v. Mirtchev, 796
F.3d 1, 15, 418 U.S. App. D.C. 1 (D.C. Cir. 2015). Indeed,
“[w]hen it is made to appear that the foreign government
has acted in a given way . . . the details of such action or
the merit of the result cannot be questioned but must
be accepted by our courts as a rule for their decision.”
Konowaloff v. Metropolitan Museum of Art, 702 F.3d 140,
146 (2d Cir. 2012) (quoting Ricaud v. American Metal Co.,
246 U.S. 304, 309, 38 S. Ct. 312, 62 L. Ed. 733 (1990)). The
foreign government need not be a party to the litigation
for the doctrine to apply. Rather, its application “turns
on what must be adjudicated.” Hourani, 796 F.3d at 15.

31a
Appendix B
Earlier in this case, Plaintiff argued there is
no “doubt that PDVSA is an instrumentality of the
Venezuelan government” and that the Act of State and the
international comity doctrines foreclose the Court from
adjudicating the legality of action taken by the Venezuelan
government. [ECF No. 646, p. 30-31]. Subsequently, on
January 23, 2019, the United States recognized Juan
Guaidó as the Interim President of Venezuela and
reaffirmed its recognition of the National Assembly as
Venezuela’s only legitimate branch of government. The
United States’ recognition of the National Assembly, as
opposed to the Maduro regime, “is retroactive in effect
and validates all the actions and conduct of the government
so recognized from the commencement of its existence.”
United States v. Pink, 315 U.S. 203, 223, 62 S. Ct. 552,
86 L. Ed. 796 (1942) (quoting Oetjen v. Central Leather
Co.¸246 U.S. 297, 302, 38 S. Ct. 309, 62 L. Ed. 726 (1918)).
Therefore, if the National Assembly’s declaration that
the Trust Agreement is unconstitutional is considered
an official act of the government of Venezuela, the Act
of State doctrine would preclude this Court from ruling
otherwise. See Konowaloff, 702 F.3d at 143 (“After the
Executive Branch’s recognition of a foreign state, the act
of state doctrine applies retroactively to acts that were
undertaken by the foreign state prior to official United
States recognition.”). The Venezuelan government, now
recognized by the United States government, has declared
the Trust Agreement at issue to be invalid. But given
the current turmoil in Venezuela and the uncertainty
concerning Venezuelan leadership, and because the
Court has already determined that Plaintiff does not
have standing, the Court declines to apply the Act of

32a
Appendix B
State doctrine here. The principles behind the doctrine,
however, clearly support the Court’s reticence to enforce
the Trust Agreement.
CONCLUSION
Accordingly, after careful consideration, it is
ORDERED AND ADJUDGED as follows:
(1) Judge Otazo-Reyes’s Report and Recommendation
[ECF No. 10] is ADOPTED in PART;
(2) Defendants’ Motion to Dismiss for Lack of
Standing (the “Motion”) [ECF Nos. 517, 522
(under seal)] is GRANTED. This action shall be
DISMISSED without prejudice for lack of subject
matter jurisdiction.
(3) Campo Elias Paez’s Motion to Quash Service of
Process [ECF No. 272] and Campo Elias Paez’s
Motion to Quash Renewed Service of Process
[ECF No. 604] are DENIED as MOOT.
(4) Plaintiff’s Objections to the Order Striking a
Witness and the Order Excluding Admission
of Plaintiff Exhibit 63 [ECF No. 600] are
OVERRULED.
(5) Plaintiff’s Objections to the Order Striking
Plaintiff ’s Exhibit 6 4 [ECF No. 601] are
OVERRULED.
(6) This action shall be CLOSED.

33a
Appendix B
DONE AND ORDERED in Chambers at Miami,
Florida, this 8th day of March, 2019.
/s/ Darrin P. Gayles		
DARRIN P. GAYLES
UNITED STATES DISTRICT
JUDGE

34a
Appendix
C
APPENDIX
C — REPORT
AND
RECOMMENDATION OF THE UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, DATED
NOVEMBER 5, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 1:18-CIV-20818-GAYLES/OTAZO-REYES
PDVSA US LITIGATION TRUST,
Plaintiff,
v.
LUKOIL PAN AMERICAS LLC, et al.,
Defendants.
November 5, 2018, Decided
November 5, 2018, Entered on Docket
ALICIA M. OTAZO-REYES, UNITED STATES
MAGISTRATE JUDGE.
REPORT AND RECOMMENDATION
THIS CAUSE was referred to the undersigned by the
Honorable Darrin P. Gayles, United States District Judge,
pursuant to Title 28, United States Code, Section 636,
for a report and recommendation on dispositive matters
[D.E. 220]. The following matters fall within the scope of
the referral order:

35a
Appendix C
(1) Defendants Lukoil Pan Americas LLC, Colonial
Oil Industries, Inc., Colonial Group, Inc., Paul Rosado,
Glencore Ltd., Glencore Energy UK Ltd., Gustavo
Gabaldon, Sergio de la Vega, Vitol Inc., Vitol Energy
(Bermuda) Ltd., Antonio Maarraoui, Trafigura Trading,
LLC, BAC Florida Bank, Francisco Morillo, Leonardo
Baquero, Helsinge Holdings, LLC, Helsinge, Inc.,
Helsinge Ltd., Daniel Lutz, Luis Liendo, John Ryan,
Luis Alvarez, and Maximiliano Poveda’s (collectively,
“Defendants”) Motion to Dismiss for Lack of Standing
(hereafter, “Motion to Dismiss”) [D.E. 517, 522 (under
seal)];1
(2) Plaintiff PDVSA U.S. Litigation Trust’s (“Plaintiff”
or “Trust”) Memorandum of Law on Standing T.D.E. 518,
519 (under seal));2
(3) Defendants’ Response in Support of their Motion
to Dismiss for Lack of Standing [D.E. 532];
(4) Plaintiff’s Reply Brief on Standing [D.E. 533, 535
(under seal)]; and
1. In accordance with the undersigned’s Scheduling Order,
as modified, Defendants have until December 13, 2018 “to answer,
move, or otherwise respond to Plaintiffs Amended Complaint. This
would be the Defendants’ first responsive pleadings, and thus all
defenses and motions under Federal Rules of Civil Procedure
are preserved.” See Scheduling Order [D.E. 253 at 3]; Paperless
Order [D.E. 635]. For the avoidance of confusion, the undersigned
notes that the collective “Defendants” as defined above does not
encompass all named defendants in the case.
2. PDVSA is the Venezuelan state-owned energy company
Petroleos de Venezuela, S.A. See Am. Compl. [D.E. 12 at 2].

36a
Appendix C
(5) Defendants’ Notice of Supplemental Authority in
Support of their Motion to Dismiss for Lack of Standing
[D.E. 626].
The undersigned held an evidentiary hearing on
the issue of Plaintiffs standing on August 2 and 3, 2018
(hereafter, “Standing Hearing”) [D.E. 555, 558]. At the
Standing Hearing, the parties presented respective
experts on Venezuelan law and Plaintiff presented a
handwriting expert. See Exhibit and Witness List [D.E.
569 at 10, 15-16].
Upon a thorough review of the evidence, the
arguments presented by the parties and the applicable
law, the undersigned concludes that the Trust lacks
standing to pursue this action as the purpor ted
assignee of claims belonging to PDVSA. Therefore, the
undersigned respectfully recommends that Defendants’
Motion to Dismiss be GRANTED and that this action be
DISMISSED for lack of subject matter jurisdiction.
PROCEDURAL BACKGROUND
The Trust commenced this action on March 3, 2018
[D.E. 1]. The Trust filed an Amended Complaint on
March 5, 2018 [D.E. 12]. In its amended pleading, the
Trust alleges that Defendants engaged in a conspiracy
to: “fix prices, rig bids, and eliminate competition in the
purchase and sale of crude oil and hydrocarbon products
by PDVSA; misappropriate PDVSA proprietary data and
intellectual property; and systematically loot PDVSA by
causing corrupt PDVSA officials not to collect monies due
PDVSA, to pay inflated prices for products and services

37a
Appendix C
acquired by PDVSA, to accept artificially low prices
for products sold by PDVSA, to overlook the failure to
deliver products and services paid for by PDVSA, and to
fraudulently conceal what was owed to PDVSA.” See Am.
Compl. [D.E. 12 at 2-3].
In the section of the Amended Complaint entitled
“Parties,” the Trust alleges: “Plaintiff PDVSA US
Litigation Trust is a trust established pursuant to the
laws of New York to investigate and pursue claims against
Defendants and others.” Id. ¶ 8. No additional facts
regarding the establishment of the Trust were alleged in
the Amended Complaint; and no documentation, such as
the Trust Agreement establishing the Trust, was attached
to the pleading.
The Amended Complaint consists of nineteen counts:
Count I

PDV S A S a le s of Hyd r o c a r b on
Products - Violations of Section I of
the Sherman Act.

Count II

PDVSA Purchases of Light Crude
Products - Violations of Section I of
the Sherman Act.

Count III

PDV S A S a le s of Hyd r o c a rb on
Products - Violations of Section 2(c)
of the Robinson-Patman Act.

Count IV

PDVSA Purchases of Light Crude
Products - Violations of Section 2(c)
of the Robinson-Patman Act.

38a
Appendix C
Count V

Violations of the Florida Deceptive and
Unfair Trade Practices Act.

Count VI

Violations of the U.S. Racketeer
Influenced and Corrupt Organizations
Act Under 18 U.S.C. § 1962(c).

Count VII

Violations of the U.S. Racketeer
Influenced and Corrupt Practices Act
Under 18 U.S.C. § 1962(d).

Count VIII

Violations of the Civil Remedies for
Criminal Practices Act.

Count IX

Fraud.

Count X

Civil Conspiracy.

Count XI

A id i ng and Abetti ng Breach of
Fiduciary Duty.

Count XII

Aiding and Abetting Fraud.

Count XIII

PDVS A Purchases of Light Crude
Products - Breach of Contract.

Count XIV

PDVS A Sa les of Hyd roc a rbon
Products - Breach of Contract.

Count XV

Unjust Enrichment.

Count XVI

Violation of the Computer Fraud and
Abuse Act, 18 U.S.C. § 1030.

39a
Appendix C
Count XVII

Violation of the Stored Communications
Act, 18 U.S.C. § 2701.

Count XVIII Violation of the Wire and Electronic
Communications Interception and
Interception of Oral Communications
Act (Federal Wiretap Act), 18 U.S.C.
§ 2510.
Count XIX

Violation of the Florida Uniform Trade
Secrets Act, CH. 688.

Id. at 27-58. In its Prayer for Relief, the Trust seeks
various forms of damages, interest, costs, fees, and
injunctive relief. Id. at 58-59.
At the time it commenced the action, the Trust
also filed Plaintiff’s Ex Parte Motion for a Temporary
Restraining Order (“TRO”) and Preliminary Injunction
and Delayed Service (hereafter, “Injunction Motion”)
[D.E. 5]. On March 5, 2018, the Court entered a TRO
requiring the preservation of records and documents and
directing Defendants to file responses to the Injunction
Motion by a set deadline [D.E. 9]. On March 26, 2018,
certain Defendants filed a response to the Injunction
Motion, in which they argued that, “[a]s a threshold
matter, Plaintiff lacks standing to. assert the pleaded
claims both as a matter of Venezuelan and New York
law.” See Defendants’ Joint Response in Opposition to
Plaintiff’s Motion for a Preliminary Injunction (hereafter,
“Injunction Response”) [D.E. 161 at 1]. According to
Defendants, “the Court lacks jurisdiction and, before

40a
Appendix C
permitting or considering further action or argument in
this case, should first determine whether the Plaintiff can
meet its burden to establish standing at the Preliminary
Injunction phase.” Id. at 2. 3 While arguing that the
standing issue raised by Defendants is prudential rather
than jurisdictional, Plaintiff agreed to the issue being
addressed preliminarily. See Transcript of Status
Conference Held Before The Honorable Darrin P. Gayles
on April 4, 2018 [D.E. 234 at 8, 10-11].
On April 16, 2018, the undersigned entered a
Scheduling Order prescribing a procedure and schedule
for the parties to conduct discovery on the issue of
Plaintiff’s standing. See Scheduling Order [D.E. 253].
Thereafter, the undersigned issued a series of Discovery
Orders [D.E. 278, 355, 370, 390, 396, 404, 442, 475, 507]
and modified the Scheduling Order twice [D.E. 356, 498].
On June 14, 2018, Defendants filed a Motion, by
Order to Show Cause, for Sanctions and Other Relief
against Plaintiff (hereafter, “Sanctions Motion”) [D.E.
430]. Therein, Defendants contend that Plaintiff failed
to fully comply with the discovery contemplated by the
Scheduling Orders. Id. Defendants seek as sanctions: 1)
the dismissal of Plaintiff’s claims; 2) in the alternative,
an order precluding Plaintiff from claiming that PDVSA
properly created the Trust or properly assigned claims to
the Trust, and/or from offering or relying on any evidence
from PDVSA in attempting to prove its standing; and 3)
3. Defendants attached to their Injunction Response a copy
of the Trust Agreement that they claimed to have obtained on
their own [D.E. 161 at 5-6; D.E. 161-1].

41a
Appendix C
an award of attorneys’ fees and costs. Id. After a hearing,
the undersigned directed Plaintiff to “supplement the
record explaining how it proposes to authenticate the
Trust Agreement, upon which Plaintiff’s standing is
predicated, at the anticipated hearing on standing.” See
Order [D.E. 482 at 1]. On July 13, 2018, Plaintiff filed its
Memorandum Responding to the Court’s Inquiry as to
What Evidence Plaintiff Will Offer to Authenticate the
PDVSA U.S. Litigation Trust Agreement (hereafter,
“Plaintiff’s Evidentiary Proffer”) [D.E. 494]. On July
18, 2018 Defendants filed their Response to Plaintiff’s
Evidentiary Proffer [D.E. 502]. After receiving the
parties’ submissions, the undersigned decided to defer
ruling on the Sanctions Motion pending the Standing
Hearing. See Order [D.E. 508 at 3].
THE PARTIES’ ARGUMENTS RE:
PLAINTIFF’S STANDING
1. Defendants’ Arguments
First. The Trust Agreement upon which Plaintiff relies
to establish its Article III standing to pursue the foregoing
claims against Defendants is inadmissible because none
of the signatories to the instrument appeared during
discovery to: authenticate their signatures; establish their
authority to sign it; or demonstrate that they understood
it.
Second. Even if the Trust Agreement were admissible,
the instrument is void under New York law, which
expressly governs it, because: it violates New York’s

42a
Appendix C
ban on champerty; it lacks a notarized certificate of
acknowledgment by the individual who signed on behalf
of PDVSA; and it purports to assign, an indefinite trust
corpus, namely, PDVSA’s claims against Defendants.
Third. Even if the Trust Agreement were valid under
New York law, the case should be dismissed on nonjusticiable political question grounds. Two resolutions
from Venezuela’s National Assembly state that: (1) the
Trust is “unconstitutional;” and (2) one of the Trust’s
signatories “usurped” his office. According to Defendants,
a finding that Plaintiff has standing pursuant to the Trust
Agreement would contravene the U.S. State Department’s
support for the Venezuelan National Assembly and
undermine U.S. foreign policy.
Fourth. Even if the Court finds the standing issue to be
justiciable, the Trust Agreement is void under Venezuelan
law because: the signatories lacked legal authority; and
the Trust Agreement is a “national interest contract” that
lacks the required approval by the Venezuelan National
Assembly.
Fifth. Contrary to Plaintiff’s contention, the act of
state doctrine does not apply to PDVSA’s act of assigning
its claims against Defendants because: the act was not
performed solely within Venezuela’s borders; and PDVSA
authorized the bringing of suit in the United States.

43a
Appendix C
2. Plaintiff’s Arguments
First. The standing issue raised by Defendants is
prudential, not jurisdictional; and it can be cured at any
time during the course of litigation on the merits.
Second. Defendants lack standing to challenge the
validity of the Trust Agreement because they are not
parties to it.
Third. Even if Defendants had standing to challenge
the validity of the Trust Agreement under Venezuelan
law, the creation of the Trust falls within the act of state
doctrine and, in any event, the Trust Agreement is valid
under Venezuelan law.
Fourth. The signatures on the Trust Agreement have
been properly authenticated in multiple ways.
Fifth. The Trust Agreement is not void as champertous
or maintenance and Defendants have no standing to raise
such claims.
Sixth. The Trust Agreement does not violate United
States foreign policy.
Seventh. The Trust Agreement complies with the
requirements of New York law.
The undersigned addresses the parties’ respective
arguments below.

44a
Appendix C
DISCUSSION
1. Whether the issue of Plaintiff ’s standing is
jurisdictional.
Article III of the United States Constitution “restricts
the jurisdiction of the federal courts to litigants who have
standing to sue.” Nicklaw v. Citimortgage, Inc., 839 F.3d
998, 1001 (11th Cir. 2016) (citing Lujan v. Defs. of Wildlife,
504 U.S. 555, 560, 112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)).
“The irreducible constitutional minimum of standing
comprises three elements: injury in fact, causation, and
redressability.” Id. “A plaintiff has injury in fact if he
suffered an invasion of a legally protected interest that is
concrete, particularized, and actual or imminent.” Id. at
1002. In this case, the Trust has not sustained any injury
itself, but relies on the assignment of PDVSA’s claims to
it by operation of the Trust Agreement. According to the
United States Supreme Court: “Lawsuits by assignees,
including assignees for collection only, are ‘cases and
controversies of the sort traditionally amenable to, and
resolved by, the judicial process.’” Sprint Comm’n Co, L.P.
v. APCC Servs., Inc., 554 U.S. 269, 285, 128 S. Ct. 2531,
171 L. Ed. 2d 424 (2008) (quoting Vermont Agency Nat.
Res. v. United States ex rel Stevens, 529 U.S. 765, 777-78,
120 S. Ct. 1858, 146 L. Ed. 2d 836 (2000)). In Vermont
Agency, the Supreme Court stated that “the assignee of
a claim has standing to assert the injury in fact suffered
by the assignor.” Vermont Agency, 529 U.S. at 773.
In Sprint, the Supreme Court described the contours
of the assignments at issue as follows:

45a
Appendix C
The present litigation involves a group of
aggregators who have taken claim assignments
from approximately 1,400 payphone operators.
Each payphone operator signed an Assignment
and Power of Attorney Agreement (Agreement)
in which the payphone operator “assigns,
transfers and sets over to [the aggregator]
for purposes of collection all rights, title and
interest of the [payphone operator] in the
[payphone operator’s] claims, demands or
causes of action for ‘Dial-Around Compensation’
. . . due the [payphone operator] for periods
since October 1, 1997.” App. to Pet. for Cert. 114.
The Agreement also “appoints” the aggregator
as the payphone operator’s “true and lawful
attorney-in-fact.” Ibid . The Ag reement
provides that the aggregator will litigate “in
the [payphone operator’s] interest.” Id., at 115.
And the Agreement further stipulates that the
assignment of the claims “may not be revoked
without the written consent of the [aggregator].”
Ibid. The aggregator and payphone operator
then separately agreed that the aggregator
would remit all proceeds to the payphone
operator and that the payphone operator would
pay the aggregator for its services (typically via
a quarterly charge).
Sprint, 554 U.S. at 272.
The Supreme Court only considered the issue of
prudential standing after finding that these claims’
assignees had Article III standing. See Sprint, 554 U.S.

46a
Appendix C
at 289. As defined by the Supreme Court, “prudential
standing doctrine embodies judicially self-imposed limits
on the exercise of federal jurisdiction.” Id. (quoting Elk
Grove Unified School Dist. v. Newdow, 542 U.S. 1, 11, 124
S. Ct. 2301, 159 L. Ed. 2d 98 (2004)). The Supreme Court
found that the prudential standing issue was not applicable
to the assignees, because they were “suing based on
injuries originally suffered by third parties” but had been
assigned “all rights, title and interest in claims based
on those injuries.” Id. at 290. Thus, the assignees were
“asserting first-party, not third-party legal rights.” Id.
Circuit courts that have analyzed the issue of an
assignee’s standing have done so in the jurisdictional
context of Article III. See e.g., US Fax Law Center, Inc.
v. iHire, Inc., 476 F.3d 1112, 1120 (10th Cir. 2007) (given
that the assignment of Telephone Consumer Protection
Act (“TCPA”) claims was invalid because such claims “are
in the nature of personal-injury, privacy claims,” assignee
lacked constitutional standing); Dougherty v. Carlisle
Transp. Prods., Inc., 610 F. App’x 91, 93-94 (3d Cir. 2015)
(given that the assignment of a claim was champertous
under Pennsylvania law, assignee was not permitted to
litigate it, notwithstanding the Sprint decision finding
that an assignee of a legal claim for money owned had
Article III standing).
In the Southern District of Florida, the issue of
an assignee’s standing has been similarly treated as a
threshold jurisdictional inquiry. See MAO-MSO Recovery
II, LLC v. Boehringer Ingelheim Pharms., Inc., 281
F. Supp. 3d 1309, 1314-15 (S.D. Fla. 2017) (dismissing
complaint after finding that factual allegations did not

47a
Appendix C
support purported assignees’ claim that they had Article
III standing);4
In arguing that Article III standing analysis should
be bypassed in favor of prudential standing analysis only,
Plaintiff improperly invites the Court to follow a different
path than that followed by the Supreme Court, the Tenth
and Third Circuits, and the Southern District of Florida.
Moreover, given that prudential standing analysis involves
a further limitation on the exercise of federal jurisdiction,
Sprint, 554 U.S. at 289, prudential standing considerations
necessarily follows a finding of constitutional standing.
Plaintiff argues that, because it has pled a valid
assignment, Defendants’ challenge to the validity of the
assignment does not raise an issue of subject matter
jurisdiction but one of prudential standing that does not
affect jurisdiction. Plaintiff misapprehends Defendants’
subject matter jurisdiction challenge as a facial one, but
it is actually a factual one, which challenges the Court’s
“very power to hear the case.” Lawrence v. Dunbar,
919 F.2d 1525, 1529 (11th Cir. 1990). In such challenges,
“no presumptive truthfulness attaches to plaintiffs
allegations, and the existence of disputed material facts
will not preclude the trial court from evaluating for itself
the merits of jurisdictional claims.” Id.
4. On appeal, the parties settled the case and jointly moved
for vacatur of the district court’s order, which was granted
after remand. See MAO-MSO Recovery II, LLC v. Boehringer
Ingelheim Pharms., Inc., No. 18-10739-FF, 2018 U.S. App. LEXIS
18650, 2018 WL 4183397 (11th Cir. July 9, 2018); Order, Case No.
17-cv-21996-UU [D.E. 113].

48a
Appendix C
Based on the foregoing analysis, the undersigned
concludes that Plaintiff ’s standing as an assignee
of PDVSA’s claims is a threshold issue that must be
addressed as a Fed. R. Civ. P. 12(b)(1) factual challenge
to subject matter jurisdiction. Lawrence, 919 F.2d at 1529.
Thus, the undersigned rejects Plaintiff’s argument that
the challenge be addressed solely as one to its prudential
standing that should abide a motion to dismiss for failure
to state a claim pursuant to Fed. R. Civ. P. 12(b)(6). The
undersigned next considers the grounds advanced by
Defendants in support of their contention that Plaintiff
lacks constitutional standing.
2. Whether Plaintiff has failed to carry its burden of
proving the admissibility of the Trust Agreement
upon which it relies to establish its Article III
standing as assignee of PDVSA and to support its
claim that the purported assignment is valid.
A.

The Trust Agreement.

The Trust Agreement, which is dated July 27, 2017,
recites:
(1) That PDVSA is the owner of “Contributed Claims”
against so-called “Conspirators,” whose purported
“misconduct has caused and continues to cause vast
damages to PDVSA and the people of Venezuela.” See
Trust Agreement, Pl.’s Ex 1, at 1. 5
5. At the Standing Hearing, the undersigned reserved ruling
on the admissibility of the Trust Agreement. See Transcript of
Continued Standing Hearing held on August 3, 2018 (hereafter,
“8/3/18 Transcript”) [D.E. 562 at 79-80].

49a
Appendix C
(2) That PDVSA has authorized “the engagement
of United States law firms and investigators to further
investigate, commence one or more civil actions (the
‘Assigned Actions’), and prosecute the Assigned Actions
to conclusion.” Id.
(3) That PDVSA and Boies Schiller Flexner LLP (the
“US Law Firm Appointer”) “are appointing the Litigation
Trustees to hold and pursue the Assigned Actions.” Id. See
also Amendment Number One to Trust Agreement, dated
April 10, 2018 (hereafter, “Amendment One”), Pl.’s Ex 2.6
The follow ing three Litigation Trustees were
appointed: Alexis Arellano (“Mr. Arellano”) (the “PDVSA
Appointee”); and Vincent Andrews (“Mr. Andrews”) and
Edward P. Swyer (“Mr. Swyer”) (together, the “US Law
Firm Appointees). See Trust Agreement, Pl.’s Ex. 1 at 8.
Mr. Arellano purportedly signed the Trust Agreement.
Id. at 15-16. Mr. Andrews and Mr. Swyer signed the
Trust Agreement and acknowledged their respective
signatures before notaries. Id. See also Pl.’s Ex. 1A. Mr.
Andrews and Mr. Swyer also signed Amendment One and
acknowledged their respective signatures before notaries.
See Amendment One, Pl.’s Ex. 2.7
6. Amendment One eliminated from the Trust Agreement the
second US Law Firm Appointer, Meister Seelin & Fein LLP; and
replaced the Trust Agreement’s definition of “PDVSA Appointer”
from “The Minister of the People’s Petroleum Power” to “The
President of PDVSA.” See Trust Agreement, Pl.’s Ex. 1 at 1, 8;
Amendment One Pl.’s Ex. 2 at 1, 2.
7. Defendants do not challenge Mr. Andrews’ and Mr. Swyer’s
acknowledgments of their respective signatures, as shown on Pl.’s
Exs. 1A and 2A. See 8/3/18 Transcript [D.E. 562 at 80].

50a
Appendix C
Two Venezuelan officials also purportedly signed the
Trust Agreement. See Trust Agreement, Pl.’s Ex. 1 at 1516. One such signatory is the original PDVSA Appointer,
Nelson Martinez, as Minister of the Peoples Petroleum
Power, Bolivarian Republic of Venezuela (“Mr. Martinez”).
Id. As noted above, however, Amendment One changed
the definition of PDVSA Appointer from “The Minister of
the People’s Petroleum Power,” namely, Mr. Martinez, to
“The President of PDVSA.” The gentleman holding that
title is Manuel Quevedo (“Mr. Quevedo”). See Motion to
Dismiss [D.E. 517 at 14].
The Second Venezuelan official who purportedly
signed the Trust Agreement is Reinaldo Mufioz Pedroza,
as “Procurador General de 1a Republica,” Bolivarian
Republic of Venezuela (“Mr. Pedroza”), who, as “General
Attorney” purportedly “duly authorized” the Trust
Agreement under Venezuelan law. See Trust Agreement,
Pl.’s Ex. 1 at 8, 13, 15-16. Shortly before the Standing
Hearing, Plaintiff submitted an acknowledgment of
signature and apostille dated July 12, 2018, for Mr.
Pedroza’s signature on the Trust Agreement. See Pl.’s
Ex. 1B. At the Standing Hearing, the undersigned
reserved ruling on the admissibility of Mr. Pedroza’s
acknowledgment. See 8/3/18 Transcript [D.E. 562 at 81].
The undersigned finds that, given Mr. Pedroza’s failure to
submit for deposition, as discussed below, it would be unfair
to admit this last minute, untested acknowledgement of his
signature on the Trust Agreement. Accordingly, Plaintiff’s
Exhibit 1B is excluded.

51a
Appendix C
B. Standing discovery.
During the course of standing discovery, conducted
pursuant to the undersigned’s Scheduling Orders [D.E.
253, 356, 498] and Discovery Orders [D.E. 278, 355,
370, 390, 396, 404, 442, 475, 507], Defendants attempted
but did not succeed in deposing the Venezuelan officials
who purportedly signed and/or authorized the Trust
Agreement, namely: Mr. Arellano (the PDVSA appointed
trustee); Mr. Martinez (the original PDVSA appointer
of the PDVSA trustee); and Mr. Pedroza, the “General
Attorney” who purportedly authorized the Trust
Agreement. During standing discovery, Defendants also
sought the deposition of Mr. Quevedo, the replacement
PDVSA appointer of the PDVSA trustee pursuant to
Amendment One.
On April 25, 2018, the undersigned prescribed a
deadline of April 27, 2018 for the parties to meet and
confer regarding the availability of Mr. Pedroza, Mr.
Martinez, Mr. Arellano and Mr. Quevedo for deposition
by Defendants. See First Discovery Order [D.E. 278 at 3].
The undersigned prescribed the same deadline regarding
the availability of PDVSA’s corporate representative for
deposition by Defendants. Id.
As of May 1, 2018, Plaintiff had agreed to produce for
deposition Mr. Pedroza and a Rule 30(b)(6) representative
of PDVSA. See Second Discovery Order [D.E. 355 at 2].
On May 9, 2018, the undersigned ruled that Defendants
could depose Dr. Hilda Cabeza (“Dr. Cabeza”) as PDVSA’s

52a
Appendix C
Rule 30(b)(6) representative and Mr. Pedroza. See Third
Discovery Order [D.E. 370 at 3]. Noting that Defendants
had indicated their desire to depose Mr. Arellano, the
undersigned prescribed a deadline of May 22, 2018 for
Plaintiff to inform Defendants whether it could produce
Mr. Arellano, or his replacement, if any, as the PDVSA
appointed litigation trustee. Id.8
Plaintiff never produced Mr. A rellano or his
replacement for deposition.9 With regard to Mr. Martinez,
8. The Trust had claimed that Mr. Arellano could not be
located. See Motion to Dismiss [D.E. 517 at 14]; see also Transcript
of May 8, 2018 Telephonic Hearing [D.E. 373 at 29]:
THE COURT: All right. So, you are telling me that
you cannot locate Mr. Arellano, that you have made due
diligence efforts. You are representing as an officer
of the court that you have exhausted your abilities to
locate Mr. Arellano and are not able to determine his
whereabouts at this time. Is that correct?
MR. D. BOIES: That is correct, Your Honor. Moreover
I have told counsel that if we were able to locate him
we would immediately tell them that we have located
him, but I represent to the Court that we have used
every [ ] means that I know of that we could use to
try to locate him. And we have been unable to do so
and they are going to take the Procurador General’s
deposition and they can ask him, and I believe he will
conf[irm], that he tried as well to find this person in
Venezuela.
9. At the Standing Hearing, Plaintiff included in its witness
list an unnamed “PDVSA Representative” who would testify
“[i]f available.” See Plaintiff’s Witness List [D.E. 543-1 at 2].

53a
Appendix C
who Defendants also expressed they wanted to depose,
the undersigned prescribed a deadline of May 9, 2018 for
Defendants to notify Plaintiff if they wished to substitute
another deponent in his place. Id.10 Should Defendants still
seek Mr. Martinez’s deposition, Plaintiff had until May 22,
2018 to inform Defendants whether he could be produced.
Id. Plaintiff never produced Mr. Martinez for deposition.11
On May 23, 2018, the undersigned noted that Mr.
Pedroza’s deposition had been scheduled for May 30, 2018
in New York. See Fourth Discovery Order [D.E. 390 at 3].
Defendants filed a Motion to Strike the Unnamed “PDVSA
Representative” [D.E. 545]. The undersigned granted Defendants’
Motion to Strike [D.E. 564]. Plaintiff also proffered a “Notice of
Appointment of Successor Trustee” as Exhibit 63, which it might
offer. See Plaintiff’s Exhibit List [D.E. 544-1 at 9]. Plaintiff’s
Exhibit 63 consists of various documents dated July 27-30, 2018,
whereby Mr. Quevedo appoints an individual named Marcos
Alejandro Rojas (“Mr. Rojas”) as the PDVSA appointed litigation
trustee in place of Mr. Arellano [D.E. 583-48]. The undersigned
excluded Plaintiff’s Exhibit 63. See 8/3/18 Transcript [D.E. 562
at 101]. Defendant has objected to the undersigned’s rulings
regarding Mr. Rojas and Pl.’s Ex 63 [D.E. 600].
10. Mr. Martinez had reportedly been arrested and
imprisoned in Venezuela on charges of corruption and executing
contracts without proper authorization. See Motion to Dismiss
[D.E. 517 at 14] (citing November 30, 2017 news reports).
11. Plaintiff attempted to introduce at the Standing Hearing
Mr. Martinez’s purported acknowledgment of his signature
on the Trust Agreement, which Defendants opposed. See
Defendants’ Motion to Exclude Plaintiff’s Exhibit 64 [D.E. 551].
The undersigned granted Defendants’ Motion [D.E. 565]. Plaintiff
has objected to the undersigned’s ruling [D.E. 601].

54a
Appendix C
The undersigned also prescribed a deadline of May 25,
2018, for the parties to file a joint notice disclosing the
deponent’s identity, date and location for the deposition
of PDVSA’s Rule 30(b)(6) representative. Id. On June
7, 2018, the Honorable Andrea M. Simonton, United
States Magistrate Judge, presided over an emergency
telephonic hearing due to the undersigned’s absence
from the Southern District of Florida. See Order [D.E.
422 at 1]. At the telephonic hearing, Plaintiff advised
that the deposition of Dr. Cabeza as PDVSA’s corporate
representative, which had been scheduled for Friday,
June 8, 2018 in Madrid, Spain “was cancelled because
the President of Venezuela precluded Dr. Cabeza from
leaving Venezuela for the deposition.” Id. Similarly,
Mr. Pedroza’s deposition, which had been scheduled to
take place in New York on May 30, 2018, was cancelled
because “the President of Venezuela had restricted travel
of government officials outside the country.” See Emails
from Plaintiff’s counsel, George Carpinello, dated May
27, 2018 [D.E. 430-1 at 7-8].
On July 19, 2018, the undersigned denied Plaintiff’s
request “to conduct Rule 31 depositions by written
questions of its own witnesses who ha[d] not appeared
for Rule 30 depositions by oral examination.” See Eighth
Discovery Order [D.E. 507 at 1-2].
Defendants were able to take the deposition of
Plaintiff’s counsel, David Boies (“Mr. Boies”). See Excerpt
of Transcript of Confidential Videotape Deposition
of David Boies (hereafter, “Boies Depo.”) [D.E. 4361 (sealed)]. Mr. Boies testified that Mr. Pedroza, who

55a
Appendix C
knows Mr. Arellano, was the individual who secured Mr.
Arellano’s signature on the Trust Agreement. Id. at 17.
Mr. Boies also testified that, to verify Mr. Martinez’s
signature on the Trust Agreement and the seal that
appears next to the signature, he would begin his inquiry
with Mr. Pedroza. Id. at 33. As noted above, however,
Mr. Pedroza’s scheduled deposition during the standing
discovery period was cancelled as a result of an order
issued by the President of Venezuela.
C.

Plaintiff’s proffered handwriting expert.

Plaintiff attempted to remedy the failure to
authenticate the signatures of Mr. Arellano, Mr. Martinez
and Mr. Pedroza during the standing discovery period by
proffering the testimony of a handwriting expert, Ruth
Brayer (“Ms. Brayer”), who testified at the Standing
Hearing. See Transcript of Standing Hearing held on
August 2, 2018 (hereafter, “8/2/18 Transcript”) [D.E. 561
at 126-200].
Initially, Defendants challenged Ms. Brayer’s
qualifications as a handwriting expert based on her being a
graphologist and her lack of membership in the American
Board of Forensic Document Examiners (“ABFDE”).
After hearing the argument of counsel, the undersigned
decided “to allow Ms. Brayer to testify as a handwriting
expert.” Id. at 149. However, the undersigned reserved
“on what weight I will give to that testimony and the
potential that I may eventually find either that she is not
qualified or that her methodology is not -- does not meet
the Daubert requirements.” Id. at 150.

56a
Appendix C
Ms. Brayer testified that she had been “hired to
compare question signatures to known signatures by the
same people and to come up with some—with an expert
opinion whether they are written by the same person or
not.” Id. at 151. Ms. Brayer relied on signatures appearing
on a Venezuelan government online publication known
as “the Gaceta Oficial” provided to her by Plaintiff’s
counsel as the purported originals of Mr. Pedroza’s and
Mr. Martinez’s signatures. Ms. Brayer admitted that she
had no knowledge regarding what is the Gaceta Oficial.
Nevertheless, she concluded that Mr. Pedroza’s and Mr.
Martinez’s respective signatures appearing on the Trust
Agreement were executed by the same individuals whose
signatures appear in the Gaceta Oficial online exemplars
she utilized as purported originals.12 With regard to Mr.
Arellano, Ms. Brayer considered as exemplars business
documents from Ecuador purportedly signed by him.
However, in one of the documents, handwritten initials
appear next to Mr. Arellano’s purported signature. Rather
than inquiring into this fact, Ms. Brayer assumed that
Mr. Arellano had two signature styles, one with and one
without the handwritten initials.
The undersigned finds that, even assuming that she is
qualified as a handwriting expert, Ms. Brayer’s proffered
expert opinions regarding Mr. Pedroza’s, Mr. Martinez’s
and Mr. Arellano’s respective signatures do not meet
the Daubert standards. Her testimony at the Standing
Hearing was contrived, equivocal, evasive and, frankly,
12. Given Ms. Brayer’s complete lack of knowledge regarding
the provenance of these purported exemplars, Plaintiff’s Exhibits
37G and 37H are excluded as the purported original signatures
of Mr. Pedroza and Mr. Martinez that she utilized.

57a
Appendix C
non-scientific. Moreover, her methodology is highly
suspect. She used as purported originals for Mr. Pedroza’s
and Mr. Martinez’s signatures documents provided to
her by Plaintiff’s counsel from an online Venezuelan
government publication regarding which she admitted she
had no knowledge. And she disregarded the appearance
of initials next to one of Mr. Arellano’s purported original
signatures on business documents, explaining it away as
variations in signature styles. Therefore, the undersigned
rejects and excludes Ms. Brayer’s handwriting opinions
based on the unreliability of her methodology under
Daubert. See United States v. Frazier, 387 F.3d 1244,
1260 (11th Cir. 2004) (citing City of Tuscaloosa v. Harcros
Chems., Inc., 158 F.3d 548, 562 (11th Cir. 1998)). See also
McCorvey v. Baxter Healthcare Corp., 298 F.3d 1253,
1257 (11th . Cir. 2002) (The gatekeeping function requires
the trial court “to conduct an exacting analysis of the
proffered expert’s methodology” to ensure it meets the
standards of admissibility under Daubert). Accordingly,
the undersigned concludes that Ms. Brayer did not
succeed in remedying Plaintiff’s failure to authenticate
the signatures of Mr. Arellano, Mr. Martinez and Mr.
Pedroza during the standing discovery period.
In light of the foregoing analysis, the undersigned
concludes that Plaintiff has failed to carry its burden of
proving the admissibility of the Trust Agreement upon
which it relies to establish its Article III standing as
assignee of PDVSA. Therefore, the Trust Agreement,
Plaintiff’s Exhibit 1, is excluded.13
13. As a housekeeping matter, the undersigned has reviewed
Plaintiff’s Exhibit 40 and finds it irrelevant to the issue of
Plaintiff’s standing; therefore, it is excluded.

58a
Appendix C
D.

Defendants’ additional challenges to Plaintiff’s
standing due to Plaintiff’s failure to provide
standing discovery.

In addition to challenging the authenticity of Mr.
Arellano’s, Mr. Martinez’s and Mr. Pedroza’s respective
signatures on the Trust Agreement, Defendants argue
that they have been precluded from exploring the
following standing-related questions due to Plaintiff’s
failure to produce these individuals for deposition during
standing discovery:
What were the circumstances of the signatures?
What authorizations did the signatories obtain,
if any, before signing the Trust Agreement?
What were PDVSA’s normal procedures for
transferring assets of the alleged size here
(billions of dollars), and what did its corporate
organizational documents require for such
transfers? Did the signatories or anyone
authorized to act on PDVSA’s behalf read the
Trust Agreement? Did the signatories have an
understanding of what “claims” were ostensibly
transferred pursuant to the Trust Agreement,
and which were not transferred? Given that
PDVSA subsidiaries typically entered the
contracts with oil companies, did PDVSA
take any steps to transfer claims from those
subsidiaries to the parent corporation (so that
it could, in turn, transfer them to the Trust)?
See Defendants’ Response to Plaintiff’s Evidentiary
Proffer [D.E. 502 at 6-7]. These questions, which Plaintiff

59a
Appendix C
has failed to answer in the course of standing discovery,
go to the validity of PDVSA’s assignment of the claims
that the Trust asserts in this action against Defendants.
Thus, in addition to the undersigned’s determination that
Plaintiff has failed to carry its burden of proving the
admissibility of the Trust Agreement, the undersigned
further finds that Plaintiff has failed to support its claim
that it holds a valid assignment from PDVSA by not
complying with standing discovery.
3. Whether Defendants lack standing to challenge
the validity of PDVSA’s purported assignment of
its claims to the Trust.
Plaintiff contends that Defendants lack standing to
challenge the validity of the Trust Agreement because they
are not parties to it. This argument does not require much
discussion given the consideration of similar challenges
as those presented here by Defendants by the United
States Supreme Court, the Tenth and Third Circuits,
and the Southern District of Florida, as discussed above.
See Sprint, 554 U.S. at 285; US Fax Law Center, 476 F.3d
at 1120; Dougherty, 610 F. App’x at 93-94; MAO-MSO
Recovery, 281 F. Supp. 3d at 1314-15. Indeed, a case upon
which Plaintiff relies for this argument actually involved
challenges to plaintiffs’ standing to assert their claims,
much like Defendants are doing here with regard to
Plaintiff. See Rajamin v. Deutsche Bank Nat. Tr. Co.,
757 F.3d 79, 83 (2d Cir. 2014) (complaint dismissed on
the grounds that “plaintiffs lacked standing to pursue
claims based on alleged violations of agreements to which
plaintiffs [we]re not parties”).

60a
Appendix C
Plaintiff also quotes Coursen v. JP Morgan Chase
& Co., No. 8:12-cv-690-T-26EAJ, 2013 U.S. Dist. LEXIS
144295, 2013 WL 5437341 (M.D. Fla. Sept. 27, 2013) for
the bare proposition that “a non-party to the assignment
lacks standing to contest it.” 2013 U.S. Dist. LEXIS
144295, [WL] at *11. However, Plaintiff fails to provide the
context for that statement, namely a discussion of standing
under Florida law to enforce a note and mortgage, and
the conclusion that plaintiff in that case could not assert
various consumer fraud claims based on her home’s
foreclosure. 2013 U.S. Dist. LEXIS 144295, [WL] at *1217. Thus, Coursen is wholly inapposite.
Plaintiff also cites Paramount Disaster Recovery LLC
v. Amica Mut. Ins. Co., No. 2:16-CV-14566-ROSENBERG/
MAYNARD, 2017 U.S. Dist. LEXIS 216839, 2017 WL
6948728, at *3 (S.D. Fla. Dec. 6, 2017) for the proposition
that a non-party to a contingency contract lacked standing
to raise arguments based on alleged flaws in the contract.
In Paramount, the court rejected the defendant’s
argument that deficiencies in the contingency contract
rendered the plaintiff’s assignment invalid. 2017 U.S. Dist.
LEXIS 216839, [WL] at *4. As stated by the Paramount
court: “Under Florida law, a nonparty to an agreement
has no standing to challenge the rights of the parties in
the agreement.” 2017 U.S. Dist. LEXIS 216839, [WL] at
*3. In this case, however, Defendants are challenging the
validity of PDVSA’s assignment of its claims to the Trust
for purposes of Plaintiff’s jurisdictional standing to bring
claims against them. Thus, Paramount is also inapposite.

61a
Appendix C
Accordingly, the undersigned finds no merit in
Plaintiff’s argument that Defendants lack standing to
make their jurisdictional challenge.14
Given the foregoing determinations, the undersigned
concludes that Plaintiff lacks standing to proceed with its
purportedly assigned claims against Defendants and that
this action is subject to dismissal for lack of subject matter
jurisdiction. In an abundance of caution, however, the
undersigned addresses the parties’ additional arguments.
4. Whether Plaintiff lacks standing because the Trust
Agreement that purports to assign PDVSA’s claims
to the Trust is void under New York law, which
expressly governs it.
Defendants advance three separate grounds in support
of their argument that the Trust Agreement is void under
its governing New York law, hence the assignment of
PDVSA’s claims is similarly void: (1) the Trust Agreement
violates New York’s ban on champerty; (2) the Trust
Agreement lacks certificates of acknowledgement, as
required by New York law; and (3) the Trust Agreement
fails to sufficiently identify the claims purportedly
assigned by PDVSA. The undersigned addresses each of
these arguments in turn.

14. The undersigned finds that Plaintiff’s numerous other
cited cases in lengthy footnotes in support of its challenge to
Defendants’ standing are similarly inapposite.

62a
Appendix C
A.

Champerty.

Defendants argue that PDVSA’s assignment of its
claims to the Trust is void because such assignment
violates New York’s ban on champerty. New York law
provides that
no corporation or association, directly or
indirectly, itself or by or through its officers,
agents or employees, shall solicit, buy or take an
assignment of, or be in any manner interested
in buying or taking an assignment of a bond,
promissory note, bill of exchange, book debt, or
other thing in action, or any claim or demand,
with the intent and for the purpose of bringing
an action or proceeding thereon...
N.Y Jud. Law § 489(1). According to the Court of Appeals
of New York, “the statute prohibits the purchase of notes,
securities, or other instruments or claims with the intent
and for the primary purpose of bringing a lawsuit.”
Justinian Capital SPC v. WestLB AG, 28 N.Y.3d 160,
43 N.Y.S.3d 218, 65 N.E.3d 1253, 1254 (N.Y. 2016). In
Justinian, a company assigned its claims against a bank
to a third party to commence litigation to recover the
company’s bank investment losses. Id. The third party
was to “remit the recovery from such litigation to the
company, minus a cut” and “partner with specific law firms
to conduct litigation.” Id. at 1255. The Court of Appeals
found the assignment to be champertous and affirmed
dismissal of the complaint. Id. at 1259.

63a
Appendix C
Here, the terms of the Trust Agreement and the results
of standing discovery reveal that the Trust’s purpose is
“to facilitate the prosecution of claims PDVSA has against
various entities and individuals and the distribution of
the Proceeds thereof.” See Trust Agreement, Pl.’s Ex 1,
at 1; see also Motion to Dismiss [D.E. 522 (under seal) at
20] (citing Boies Depo [D.E. 436-1 (under seal)]). Further,
an Engagement Letter prescribes the procedure for the
distribution of the Proceeds. See Motion to Dismiss [D.E.
522 (under seal) at 15] (citing Engagement Letter [D.E.
522-2 (under seal)]).
Plaintiff argues, however, that Defendants lack
standing to assert champerty under Florida law. Plaintiff
also argues that PDVSA’s assignment of claims to the
Trust does not violate N.Y Jud. Law § 489(1) because:
the Trust is not a “corporation or association;” the Trust
does not have as its sole purpose bringing litigation; the
champerty law is not applicable here, where the assignor
of the claims, namely PDVSA, is the sole beneficiary of
the Trust; and the value of the work expended before the
assignment exceeds the $500,000 champerty safe harbor
threshold.15 The undersigned addresses each of these
arguments in turn.
Plaintiff’s Florida law argument lacks merit because
it disregards the Trust Agreement’s choice of New York
law. With regard to New York law, Plaintiff first argues
that the Trust does not fall within the scope of N.Y Jud.
15. N.Y Jud. Law § 489(2) provides a safe harbor for
assignments that exceed that amount in value.

64a
Appendix C
Law § 489(1) because it is not technically a “corporation”
or an “association,” which are the two entities listed in the
statute. However, Plaintiff does not provide any authority
for such a literal reading of the statute. Plaintiff further
argues that, notwithstanding the explicit language of
the Trust Agreement, the Trust does not have as its sole
purpose bringing litigation. Plaintiff claims that other
purposes of the Trust are to pursue pre-suit settlement,
to cooperate with law enforcement agencies, to engage
investigators, and to hold and dispose of assets. However,
these activities are all predicated on the Trust’s pursuit
of PDVSA’s claims through litigation, as it has done here.
Plaintiff further argues that N.Y Jud. Law § 489(1) does
not apply because PDVSA is both the assignor and the sole
beneficiary of the Trust. However, PDVSA’s position is no
different than that of the assignor in Justinian, where
the Court of Appeals of New York applied N.Y Jud. Law §
489(1). See Justinian, 65 N.E.3d at 1254. Finally, Plaintiff
argues that it is eligible for the safe harbor provision in N.Y
Jud. Law § 489(2) because the value of the work expended
before the assignment exceeds $5\00,000. However, the
safe harbor only applies if the assignee pays a purchase
price for the assigned claims that exceeds $500,000 or
had a bona fide obligation to pay such purchase price
independently of the outcome of the lawsuit. Id. at 1259.
Here, there is no evidence of any payment by the Trust to
PDVSA and no commitment to make any payment other
than the distribution of the Proceeds from the prosecution
of PDVSA’s claims. See Trust Agreement, Pl.’s Ex 1, at 1.
Therefore, the Trust does not qualify for N.Y Jud. Law
§ 489(2)’s safe harbor provision.

65a
Appendix C
Based on the foregoing analysis, the undersigned
concludes that, like the assignment in Justinian, PDVSA’s
assignment of its claims to the Trust violates N.Y Jud.
Law § 489(1).16
B. Certificates of acknowledgement.
Defendants also argue that the Trust Agreement
lacks mandatory certificates of acknowledgement under
New York trust law, which makes the Trust invalid and
the assignment of PDVSA’s claims null and void.
New York trust law provides:
Every lifetime trust shall be in writing and
shall be executed and acknowledged by the
person establishing such trust and, unless such
person is the sole trustee, by at least one trustee
thereof, in the manner required by the laws of
this state for the recording of a conveyance of
real property or, in lieu thereof, executed in the
presence of two witnesses who shall affix their
signatures to the trust instrument.
N.Y. Est. Powers & Trusts Law § 7-1.17(a).
In this case, PDVSA established the Trust through the
actions of Mr. Martinez, who purportedly signed the Trust
16. Plaintiff argues that champerty is a fact-intensive issue
that must be decided by a jury. However, Justinian was decided
prior to trial. And Plaintiff had ample opportunity during the
course of standing discovery to provide support for its position
that PDVSA’s assignment of claims to the Trust is valid.

66a
Appendix C
Agreement as Minister of the People’s Petroleum Power,
Bolivarian Republic of Venezuela. See Trust Agreement,
Pl.’s Ex. 1 at 1-2, 15-16. Plaintiff never produced Mr.
Martinez for deposition, but attempted to introduce at the
Standing Hearing his purported acknowledgment of his
signature on the Trust Agreement, which the undersigned
excluded. Therefore, Plaintiff has not complied with N.Y.
Est. Powers & Trusts Law § 7-1.17(a)’s requirement that
the Trust Agreement be “executed and acknowledged”
by Mr. Martinez as the person establishing the Trust.
Plaintiff argues that an acknowledgement by Mr. Pedroza
is adequate to satisfy N.Y. Est. Powers & Trusts Law
§ 7-1.17(a) because as “General Attorney” he “duly
authorized” the Trust Agreement under Venezuelan
law. See Trust Agreement, Pl.s’s Ex. 1 at 8, 13. However,
Mr. Martinez is the individual through whom PDVSA
purportedly established the Trust, not Mr. Pedroza. See
id. at 1-2, 8. Moreover, as discussed above, Mr. Pedroza’s
purported acknowledgement of his signature on the
Trust Agreement and apostille dated July 12, 2018 have
been excluded, given Mr. Pedroza’s failure to appear for
deposition. Therefore, Mr. Pedroza’s late submission does
not satisfy N.Y. Est. Powers & Trusts Law § 7-1.17(a).17
Plaintiff first argues that N.Y. Est. Powers & Trusts
Law § 7-1.17(a) should be disregarded. According to
Plaintiff, the Trust was formed by Venezuelan officials in
Venezuela, hence Venezuelan law applies to its formation.
17. Plaintiff has submitted the acknowledged signatures of
Mr. Andrews and Mr. Swyer, who are two of the three trustees,
without objection by Defendants. Therefore, Plaintiff has complied
with N.Y. Est. Powers & Trusts Law § 7-1.17(a) as it pertains to
trustees.

67a
Appendix C
See Plaintiff’s Reply Brief on Standing [D.E. 533 at 11 n.4].
However, this argument disregards the fact that two of
the trustees, Mr. Andrews and Mr. Swyer, executed and
acknowledged the Trust Agreement in New York and that
they are “Parties” to the Trust Agreement. See Trust
Agreement, Pl.’s Ex. 1, at 1, 15-16; Pl.’s Ex. 1A.
Plaintiff next argues that Defendants lack standing
to challenge the validity of the Trust or the assignment
of PDVSA’s claims. The undersigned already discussed
and rejected this argument above.
Plaintiff next argues that N.Y. Est. Powers & Trusts
Law § 7-1.17(a) is not applicable here because it only applies
to a “person” establishing a “life time trust.” See Plaintiff’s
Reply Brief on Standing [D.E. 533 at 12]. Plaintiff offers
no authority for this proposition.
Based on the foregoing analysis, the undersigned
concludes that the Trust Agreement does not comply with
N.Y. Est. Powers & Trusts Law § 7-1.17(a).
C.

Identification of claims.

Defendants also argue that the Trust is invalid
under New York law because its corpus is not sufficiently
defined. The Trust Agreement defines the “Contributed
Claims” as claims against so-called “Conspirators,” whose
purported “misconduct has caused and continues to cause
vast damages to PDVSA and the people of Venezuela.”
See Trust Agreement, Pl.’s Ex 1, at 1. No further details
are provided regarding ‘the identity of the alleged

68a
Appendix C
“Conspirators” or the nature of PDVSA’s purported
claims against them. New York trust law requires “a fund
or other property sufficiently designated or identified to
enable title of the property to pass to the trustee.” In
re Doman, 68 A.D.3d 862, 863, 890 N.Y.S.2d 632 (N.Y.
App. Div. 2009). Plaintiff cites Sterling Natl. Bank v.
Polyseal Packaging Corp., 104 A.D.3d 466, 961 N.Y.S.2d
109 (N.Y. App. Div. 2013) as “upholding [an] assignment
that did not name potential defendants or specific causes
of action.” See Plaintiff s Reply Brief on Standing [D.E.
533 at 14]. However, in Sterling what the court did was
reject the defendant’s contention that the assignment
was invalid because it predated the invoices sent by the
assignor, stating: “An assignment may properly relate to
a future right which is adequately identified.” Sterling, 104
A.D.3d at 467. Thus, there was no identification issue in
Sterling. Plaintiff also cites Amusement Indus. v. Stern,
No. 07 Civ. 11586 (LAK)(GWG), 2011 U.S. Dist. LEXIS
150050, 2011 WL 6811018 (S.D.N.Y. Dec. 28, 2011) for the
proposition that the “assignment of all rights to claims that
‘arise’ under certain conditions is effective to incorporate
claims that were unknown to the parties at the time of the
assignment.” See Plaintiff’s Reply Brief on Standing [D.E.
533 at 14]. Nothing in Amusement Indus. supports this
proposition. Rather, the Amusement Indus. court’s ruling
was that, absent the assignor’s allegation that it retained
any legal interest in a contract after assigning “all its
rights and interests” in the contract, the assignor lacked
standing to bring any claim for payments pursuant to
the contract. Amusement Indus., 2011 U.S. Dist. LEXIS
150050, 2011 WL 6811018, at *5.

69a
Appendix C
Based on the foregoing analysis, the undersigned
concludes that the Trust Agreement fails to sufficiently
identify the “Contributed Claims.”
Having considered and found merit in Defendants’
three arguments regarding the Trust’s and the Trust
Agreement’s failure to comply with various aspects of New
York law, the undersigned concludes that the assignment of
PDVSA’s claims under the Trust Agreement’s governing
law is void and that this action is subject to dismissal due
to the Trust’s lack of standing.
5. Whether the political question doctrine and the
act of state doctrine and international comity are
applicable in this case.
Defendants argue that the Trust’s validity under
Venezuelan law presents a non-justiciable political
question requiring the Court to dismiss the case pursuant
to the political question doctrine. Plaintiff responds that
the political question doctrine addresses separation of
powers within the United States and that, in any event,
the Court is bound to follow the position of the United
States executive branch, which recognizes the government
of Venezuela’s current President.
Plaintiff argues that the act of state doctrine and
international comity preclude the Court from invalidating
acts of Venezuelan officials performed within Venezuela,
under Venezuelan law, transferring Venezuelan assets.
Defendants respond that the act of state doctrine does not
apply to PDVSA’s assignment of its claims to the Trust

70a
Appendix C
because the assignment was not performed solely within
the borders of Venezuela and the Trust Agreement is
governed by New York law.
Both sides’ arguments are aimed at precluding analysis
of the Trust Agreement’s compliance with Venezuelan law.
Yet each side has presented expert testimony on that very
issue, which the undersigned is bound to evaluate to make
this report complete. Therefore, the undersigned declines
the parties’ respective invitations to short-circuit the
Venezuelan law analysis by invoking prudential doctrines
that, in any event, are of doubtful application in this case.
6. Whether the Trust Agreement is void or valid under
Venezuelan law.
Defendants argue that the Trust Agreement is void
under Venezuelan law. In support of this proposition,
Defendants presented the testimony of their Venezuelan
law experts, Professor Jose Ignacio Hernandez (“Mr.
Hernandez”) and Rafael Badell Madrid (“Mr. Badell
Madrid”), at the Standing Hearing. See 8/2/18 Transcript
[D.E. 561 at 22-126]. Plaintiff counters that the Trust
Agreement is valid under Venezuelan law and proffered
the testimony of its expert, Professor Rogelio Perez
Perdomo (“Mr. Perdomo”). See 8/3/18 Transcript [D.E.
562 at 12-67].

71a
Appendix C
A.

Mr. Hernandez’s expert testimony.

Mr. Hernandez was admitted as an expert in
Venezuelan law, par ticularly, constitutional law,
administrative law, Venezuelan oil law and regulations,
and commercial law. Defendants engaged Mr. Hernandez
to determine if the Trust Agreement is a valid and binding
contract according to Venezuelan law. Mr. Hernandez’s
understanding of the purpose of the Trust Agreement
was for the oil minister, acting on behalf of PDVSA, to
transfer PDVSA’s litigation rights to allow the Trust to
conduct investigations and file claims in order to recover
presumptive damage suffered by PDVSA’s property,
without any payment to PDVSA for the transfer of those
claims. Mr. Hernandez opined that the Trust Agreement
is not a valid and binding contract according to Venezuelan
law for the following four reasons:
1. The National Assembly of Venezuela, in a final
and binding decision enacted by the legislative power
in Venezuela, has declared that the Trust Agreement is
invalid and unconstitutional and is a “national interest
contract” that requires, but lacks, the National Assembly’s
prior authorization.
2. Mr. Martinez, who allegedly signed the Trust
Agreement on behalf of PDVSA in his capacity as the
Minister of the People’s Petroleum Power, did, not have
the legal authority to do so because only PDVSA’s board
of directors and PDVSA’s president have the competence
to enter into an agreement on behalf of PDVSA.

72a
Appendix C
3. Mr. Pedroza, who allegedly signed the Trust
Agreement as Procurador General of Venezuela, does
not exercise the legal representation of PDVSA and has
no competence to sign agreements related to PDVSA’s
activities.
4. The Trust Agreement improperly delegates the
investigation of damage to public property to a third party
because, according to Venezuelan law, such investigation
must be conducted by certain Venezuelan entities and is
not delegable.
Mr. Hernandez explained the bases for his opinions
as follows:
Opinion # 1
The National Assembly has two powers: (1) to enact
laws; and (2) to exercise control over the other branches
of government. Pursuant to this oversight function, the
National Assembly issued an “Acuerdo,” dated April 24,
2018, which declared the Trust Agreement to be a national
interest contract and invalid. See Def.’s Ex. 6. In addition,
the Trust Agreement meets the definition of a national
interest contract under Venezuelan law, namely: a contract
between the executive branch and a foreign entity, which
has special impact on the national sovereignty, and has a
deep economic impact.18
18. According to Mr. Hernandez, a state-owned enterprise,
such as PDVSA, is part of the executive branch of the Venezuelan
government.

73a
Appendix C
Opinion # 2
According to the Venezuelan Commercial Code
and PDVSA’s bylaws, the board of directors of PDVSA
must authorize that entity to enter into a contract, and
the contract must be signed by PDVSA’s president. Mr.
Martinez’s execution of the Trust Agreement on behalf of
PDVSA did not follow this procedure. Venezuela’s organic
law on hydrocarbons did not confer on Mr. Martinez
the broad discretionary power to enter into the Trust
Agreement on behalf of PDVSA; and the Venezuelan state,
as the sole shareholder of PDVSA, could not act in lieu of
the board of directors. As a result, the Trust Agreement
is a nullity.
Opinion # 3
Mr. Pedroza purportedly signed the Trust Agreement
invoking the competence of the Procurador General
to control this kind of agreement, but he did not have
such competence. Additionally, Mr. Pedroza is not the
legitimate Procurador General of Venezuela because
he was not appointed by presidential decree with prior
authorization from the National Assembly.19
Opinion # 4
The proper authorities to investigate the damage to
Venezuelan property described in the Trust Agreement
are: the general controller office; PDVSA’s internal audit
19. After the Standing Hearing, Defendants filed a resolution
issued by the National Assembly on September 12, 2018, stating that
Mr. Pedroza had usurped the office of Procurador General [D.E. 626].

74a
Appendix C
office; the public prosecutor; and the National Assembly.
This is based on the constitution, the general controller
organic law, the anti-corruption organic law and the
internal rule of debate of the National Assembly.
On cross-examination, Mr. Hernandez testified that
he had no knowledge of any Venezuelan court decisions
relating to the National Assembly’s “Acuerdo” or the Trust
Agreement. Mr. Hernandez also acknowledged an earlier
expert opinion in which he stated that, in practice, PDVSA
has no autonomy from the state; and explained that, in his
view, the Venezuelan government had destroyed PDVSA’s
autonomy in violation of Venezuelan law.
B. Mr. Badell Madrid’s expert testimony.
Mr. Badell Madrid was admitted as an expert in
Venezuelan law, specifically in the areas of constitutional,
public, and administrative law. Defendants engaged Mr.
Badell Madrid to render opinions regarding whether Mr.
Martinez, in his capacity as oil minister, was authorized
to sign contracts on behalf of PDVSA; whether Mr.
Pedroza, as Procurador General of Venezuela, was
competent to sign the Trust Agreement and, if so, under
what formalities or requirements; and whether the
Trust Agreement is a national interest contract under
Venezuelan law. Mr. Badell Madrid fully agreed with Mr.
Hernandez’s opinions, and rendered the following opinions
and rationales:

75a
Appendix C
1. Mr. Martinez, in his capacity as oil minister, lacked
competence to sign the Trust Agreement on behalf of
PDVSA. There is no provision in Venezuelan law that
allows it and, by contrast, there are multiple provisions
providing that resolutions issued by PDVSA must be
signed by an officer or an official representing PDVSA.
2. Mr. Pedroza is usurping the office of Procurador
General and all of his acts are null and void. In addition,
he has no authority to sign any contract, agreement or
resolution that relates to PDVSA. In any event, prior to
signing the Trust Agreement, Mr. Pedroza should have
issued a written opinion because the Trust Agreement
is a national interest contract and because it includes an
arbitration clause. 20 A procedure has been established for
the issuance of such written opinions by the Procurador
General and, according to the Venezuelan Supreme Court
of Justice, the procedure must be followed in all cases that
directly or indirectly affect the interests of the Republic.
Additionally, the Procurador General’s written opinion
must be submitted, along with the contract, to the National
Assembly for approval or rejection. The failure to satisfy
these requirements renders the Trust Agreement null
and void.
3. The Trust Agreement is a national interest contract
entered into with a foreign entity that requires, but lacks,
authorization from the National Assembly. Hence, it is
null and void. 21
20. See Trust Agreement, Pl.’s Ex. 1 at 12-13.
21. Mr. Badell Madrid further opined that the Trust
Agreement compromises the interests of the Republic of Venezuela

76a
Appendix C
On cross-examination, Mr. Badell Madrid testified
that he had no knowledge of any Venezuelan court having
held the acts of Mr. Pedroza, as Procurador General of
Venezuela, or the acts of Mr. Martinez, as oil minister, to
be invalid or null and void. Mr. Badell Madrid also had
no knowledge of any Venezuelan court having declared
the creation of the Trust and the assignment of PDVSA’s
claims to the Trust to be invalid. Mr. Badell Madrid
acknowledged that contracts into which PDVSA or its
affiliates enter in the ordinary course of business need
not be approved by the National Assembly. Mr. Badell
Madrid further acknowledged that retaining counsel to
engage in litigation falls within PDVSA’s and its affiliates’
ordinary course of business.
C.

Mr. Perdomo’s expert testimony.

Mr. Perdomo was admitted as an expert in Venezuelan
constitutional law. 22 Mr. Perdomo testified that he
disagrees completely with the opinions expressed by
Defendants’ Venezuelan law experts, Mr. Hernandez and
Mr. Badell Madrid. He opined as follows:

because it exposes the Republic to suits for damages by the alleged
“Conspirators” referenced in the Trust Agreement.
22. Plaintiff also proffered Mr. Perdomo as an expert in
the Venezuelan legal system, but the undersigned limited his
testimony in this area to general opinions regarding this topic
rather than allow Plaintiff to sweep into it specific matters
regarding which Mr. Perdomo acknowledged he had no expertise.

77a
Appendix C
1. The Trust is not a national public interest contract.
2. Mr. Martinez, as oil minister, and Mr. Pedroza, as
Procurador General, had the authority to sign the Trust
Agreement.
Mr. Perdomo explained the bases for his opinions as
follows:
Opinion # 1
The Supreme Court of Venezuela has decided that a
national public interest contract: has to be engaged in by the
Republic of Venezuela, not one of its decentralized entities;
has to be a very important contract; and should imply
payments by the Republic during several years, thereby
representing an important commitment for the Venezuelan
economy. 23 Under this definition, the Trust Agreement
is not a national public interest contract because it was
entered into by PDVSA, which is a decentralized unit
of the public administration of Venezuela. Additionally,
the Trust Agreement does not involve anything that is
really important to the state, such as communications,
telecommunications, railroads or big highways. Finally,
the Trust Agreement does not require yearly payments by
the Republic of Venezuela but contemplates, instead, that
the Republic will receive money indirectly as a result of
litigation of PDVSA’s claims. The Trust Agreement does
not contemplate obligations in the form of payments on
the part of the Republic.
23. For this definition, Mr. Perdomo relied on the “Velasquez”
decision issued by the Supreme Court of Venezuela. See Pl.’s Ex. 47.

78a
Appendix C
Opinion # 2(a)
The organic law of public administration confers on
each minister control of the decentralized entities that
are under the minister’s power. 24 Thus, Mr. Martinez as
the oil minister has the power to intervene in the business
of PDVSA and make decisions on its behalf Formalities
should not trump the actions of the people. There is no
Venezuelan court decision stating that the oil minister’s
role with regard to PDVSA as the sole shareholder, or his
exercise of all the shares of PDVSA, is unconstitutional.
Opinion # 2(b)
Mr. Pedroza was not operating illegally as Procurador
General of Venezuela at the time of his execution of the
Trust Agreement. He properly holds that title in an
“acting” capacity. The process by which Mr. Pedroza
became Procurador General of Venezuela has not been
contested in any Venezuelan court. It is common for the
Procurador General to approve contracts, and there
was nothing improper with Mr. Pedroza signing the
Trust Agreement, which represented his approval of the
contract.
According to Mr. Perdomo, the National Assembly’s
“Acuerdo” regarding the Trust Agreement is a political
24. Mr. Perdomo also attempted to proffer an opinion that
the organic law of hydrocarbons gives the oil minister supreme
powers over any matter related to hydrocarbons. Because Mr.
Perdomo had previously testified that he did not regard himself
as an expert in hydrocarbon laws, the undersigned did not allow
him to proffer this opinion.

79a
Appendix C
statement that does not have the effect of making it void.
He has no knowledge of any court in Venezuela having
declared the Trust to be invalid. In his opinion, the Trust
is legal according to Venezuelan law.
D.

Evaluation of expert testimony.

Not surprisingly, the parties’ respective experts
on Venezuelan law have diametrically opposing views
regarding the validity of the Trust Agreement and the
Trust it purports to establish under that country’s laws.
Whether the Trust Agreement is valid:
• Mr. Hernandez expressed the view that the Trust
Agreement is not a valid and binding contract,
rely ing in part on the National A ssembly’s
“Acuerdo” declaring the Trust Agreement invalid
and unconstitutional.
• Mr. Perdomo opined that the Trust is legal and
called the “Acuerdo” a political statement with no
legal effect.
Whether the Trust Agreement is a public interest
contract:
• Mr. Badell Madrid characterized the Trust
Agreement as a public interest contract that
requires the approval of the National Assembly.

80a
Appendix C
• Mr. Perdomo opined that the Trust Agreement does
not meet the Venezuelan Supreme Court’s definition
of public interest contract.
Whether Mr. Martinez was a proper signatory on
behalf of PDVSA:
• According to Mr. Hernandez and Mr. Badell
Madrid, Mr. Martinez lacked the legal authority to
execute the Trust Agreement on behalf of PDVSA,
and thereby assign PDVSA’s claims to the Trust
because only PDVSA’s board of directors and
president had that authority.
• Mr. Perdomo opined that, as oil minister, Mr.
Martinez had broad powers to make decisions on
PDVSA’s behalf and that any formalities could be
disregarded.
Whether Mr. Pedroza was a proper signatory as
Procurador General:
• Mr. Hernandez deemed Mr. Pedroza to be lacking
the competence to sign agreements related to
PDVSA’s activities. Both Mr. Hernandez and Mr.
Badell Madrid opined that Mr. Pedroza does not
legally hold the office of Procurador General of
Venezuela.
• According to Mr. Perdomo, Mr. Pedroza properly
holds the title of Procurador General of Venezuela in
an “acting” capacity; and the approval of contracts,

81a
Appendix C
such as the Trust Agreement, is a common function
of that office.
Whether the Trust may properly carry out its
ostensible purpose:
• Mr. Hernandez opined that the Trust Agreement
improperly delegates the investigation of damage to
public property to a third party because, according
to Venezuelan law, such investigation must be
conducted by certain Venezuelan entities, namely,
the general controller office, PDVSA’s internal
audit office, the public prosecutor, and the National
Assembly; and that function may not be delegated.
Mr. Perdomo did not address this contention.
The foregoing summary shows that the opposing
experts’ opinions are in equipoise, except for Mr.
Hernandez’s opinion that the investigation of damage to
public property may not be delegated to a third party, such
as the Trust. That opinion stands unrebutted. Moreover,
the undersigned found Mr. Hernandez to be extremely
knowledgeable, articulate and logical in his explanations
of Venezuelan law. Therefore, the undersigned accepts
Mr. Hernandez’s unchallenged opinion on this point; and
concludes that the Trust Agreement is invalid under
Venezuelan law on the basis that it illegally delegates
the investigation of damage to public property allegedly
sustained by PDVSA to the Trust.

82a
Appendix C
CONCLUSION
Having considered Defendants’ jurisdictional
arguments, the undersigned concludes that the Trust lacks
standing to assert PDVSA’s purportedly assigned claims
in this action, on the grounds that Plaintiff has failed to
carry its burden of proving the admissibility of the Trust
Agreement upon which it relies to establish its Article III
standing as assignee of PDVSA; and that Plaintiff has
failed to support its claim that it holds a valid assignment
from PDVSA by not complying with standing discovery.
The undersigned further concludes that Plaintiff lacks
standing due to the Trust’s and the Trust Agreement’s
failure to comply with various aspects of its governing
New York law, which renders the assignment of PDVSA’s
claims void. The Trust Agreement is also invalid under
Venezuelan law on the basis that it illegally delegates to
the Trust the investigation of damage to public property
allegedly sustained by PDVSA.
RECOMMENDATION
Based on the foregoing considerations, the undersigned
RESPECTFULLY RECOMMENDS that Defendants’
Motion to Dismiss be GRANTED and that this action be
DISMISSED for lack of subject matter jurisdiction.
Pursuant to Local Magistrate Judge Rule 4(b), the
parties have fourteen days from the date of this Report
and Recommendation to file written objections, if any,
with the Honorable Darrin P. Gayles. Failure to timely file
objections shall bar the parties from attacking on appeal

83a
Appendix C
the factual findings contained herein. See Resolution Tr.
Corp. v. Hallmark Builders, Inc., 996 F.2d 1144, 1149 (11th
Cir. 1993). Further, “failure to object in accordance with
the provisions of [28 U.S.C.] § 636(b)(1) waives the right
to challenge on appeal the district court’s order based on
unobjected-to factual and legal conclusions.” See 11th Cir.
R. 3-1 (I.O.P. - 3).
RESPECTFULLY SUBMITTED in Miami, Florida
this 5th day of November, 2018.
/s/ Alicia M. Otazo-Reyes
ALICIA M. OTAZO-REYES
UNITED STATES MAGISTRATE JUDGE

84a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT, FILED MAY 7, 2021
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-10950-AA
PDVSA US LITIGATION TRUST,
Plaintiff-Appellant,
versus
LUKOIL PAN AMERICAS, LLC, LUKOIL
PETROLEUM, LTD., COLONIAL OIL
INDUSTRIES, INC., COLONIAL GROUP, INC.,
GLENCORE, LTD., et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
O N PE T I T IO N(S) F O R R E H E A R I N G A N D
PETITION(S) FOR REHEARING EN BANC
BEFORE: JORDAN, TJOFLAT and ANDERSON,
Circuit Judges.

85a
Appendix D
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge
in regular active service on the Court having requested
that the Court be polled on rehearing en banc. (FRAP 35)
The Petition for Panel Rehearing is also denied. (FRAP
40)

